<html>
<title> - AFFORDABLE HOUSING NEEDS OF AMERICA'S LOW-INCOME VETERANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                      AFFORDABLE HOUSING NEEDS OF


                     AMERICA'S LOW-INCOME VETERANS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2007

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-82




                     U.S. GOVERNMENT PRINTING OFFICE

40-434 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                  HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            RICHARD H. BAKER, Louisiana
CAROLYN B. MALONEY, New York         DEBORAH PRYCE, Ohio
LUIS V. GUTIERREZ, Illinois          MICHAEL N. CASTLE, Delaware
NYDIA M. VELAZQUEZ, New York         PETER T. KING, New York
MELVIN L. WATT, North Carolina       EDWARD R. ROYCE, California
GARY L. ACKERMAN, New York           FRANK D. LUCAS, Oklahoma
JULIA CARSON, Indiana                RON PAUL, Texas
BRAD SHERMAN, California             STEVEN C. LaTOURETTE, Ohio
GREGORY W. MEEKS, New York           DONALD A. MANZULLO, Illinois
DENNIS MOORE, Kansas                 WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
RUBEN HINOJOSA, Texas                JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN McCARTHY, New York           GARY G. MILLER, California
JOE BACA, California                 SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
BRAD MILLER, North Carolina          TOM FEENEY, Florida
DAVID SCOTT, Georgia                 JEB HENSARLING, Texas
AL GREEN, Texas                      SCOTT GARRETT, New Jersey
EMANUEL CLEAVER, Missouri            GINNY BROWN-WAITE, Florida
MELISSA L. BEAN, Illinois            J. GRESHAM BARRETT, South Carolina
GWEN MOORE, Wisconsin,               JIM GERLACH, Pennsylvania
LINCOLN DAVIS, Tennessee             STEVAN PEARCE, New Mexico
ALBIO SIRES, New Jersey              RANDY NEUGEBAUER, Texas
PAUL W. HODES, New Hampshire         TOM PRICE, Georgia
KEITH ELLISON, Minnesota             GEOFF DAVIS, Kentucky
RON KLEIN, Florida                   PATRICK T. McHENRY, North Carolina
TIM MAHONEY, Florida                 JOHN CAMPBELL, California
CHARLES A. WILSON, Ohio              ADAM PUTNAM, Florida
ED PERLMUTTER, Colorado              MICHELE BACHMANN, Minnesota
CHRISTOPHER S. MURPHY, Connecticut   PETER J. ROSKAM, Illinois
JOE DONNELLY, Indiana                THADDEUS G. McCOTTER, Michigan
ROBERT WEXLER, Florida               KEVIN McCARTHY, California
JIM MARSHALL, Georgia
DAN BOREN, Oklahoma

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
JULIA CARSON, Indiana                    Virginia
STEPHEN F. LYNCH, Massachusetts      STEVAN PEARCE, New Mexico
EMANUEL CLEAVER, Missouri            PETER T. KING, New York
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         GARY G. MILLER, California
GWEN MOORE, Wisconsin,               SCOTT GARRETT, New Jersey
ALBIO SIRES, New Jersey              RANDY NEUGEBAUER, Texas
KEITH ELLISON, Minnesota             GEOFF DAVIS, Kentucky
CHARLES A. WILSON, Ohio              JOHN CAMPBELL, California
CHRISTOPHER S. MURPHY, Connecticut   THADDEUS G. McCOTTER, Michigan
JOE DONNELLY, Indiana                KEVIN McCARTHY, California
BARNEY FRANK, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    December 5, 2007.............................................     1
Appendix:
    December 5, 2007.............................................    49

                               WITNESSES
                      Wednesday, December 5, 2007

Basher, George, Chair, National Coalition for Homeless Veterans..    29
Chamrin, Ronald F., Assistant Director, National Economic 
  Commission, The American Legion................................    39
Dale, Karen M., Executive Vice President, Operations and 
  Strategic Development, Volunteers of America...................    32
DeSantis, Deborah, President and CEO, Corporation for Supportive 
  Housing........................................................    36
Dougherty, Peter H., Director, Homeless Veterans Programs, U.S. 
  Department of Veterans Affairs.................................    11
Johnston, Mark, Deputy Assistant Secretary for Special Needs, 
  U.S. Department of Housing and Urban Development...............     9
Radcliff, Dwight, Chief Executive Officer, United States Veterans 
  Initiative.....................................................    34
Roman, Nan, President, National Alliance to End Homelessness.....    31
Weidman, Rick, Director, Government Affairs, Vietnam Veterans of 
  America........................................................    37
Wood, David, Director, Financial Markets and Community 
  Investment, US. Government Accountability Office...............    12

                                APPENDIX

Prepared statements:
    Basher, George...............................................    50
    Chamrin, Ronald F............................................    57
    Dale, Karen M................................................    68
    DeSantis, Deborah............................................    76
    Johnston, Mark...............................................    84
    Roman, Nan...................................................    88
    Wood, David G................................................    97


                      AFFORDABLE HOUSING NEEDS OF



                     AMERICA'S LOW-INCOME VETERANS

                              ----------                              


                      Wednesday, December 5, 2007

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:14 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters, Velazquez, 
Cleaver, Green, Moore of Wisconsin, Sires, Ellison, Donnelly; 
Capito, Biggert, Shays, Garrett, and Neugebauer.
    Chairwoman Waters. The Subcommittee on Housing and 
Community Opportunity will come to order. We will be joined in 
a few minutes by Ms. Capito, and some other members if they can 
get away from the Floor and other committees that they're 
serving on. Today's hearing is on affordable housing needs of 
America's low-income veterans. I think today's hearing will 
continue the strong bipartisan work we're doing in this 
subcommittee. Indeed, I may briefly turn over the gavel in 
order to speak on the House Floor on H.R. 2930, the Section 202 
Supportive Housing for the Elderly Act of 2007, a bill on which 
we held an informative hearing in early September and 
thereafter were able to work out differences in such a way that 
the bill has gone on the suspension calendar.
    Similarly, I expect that we will have bipartisan agreement 
on the basic principle that no man or woman who has served this 
country honorably in a time of war or peace should ever have to 
live in desperate poverty, or even worse, literally on the 
streets of our Nation. I'm looking forward to hearing from 
today's witnesses about how we can do better by our poorest 
veterans, because the facts today are sobering, even tragic.
    It is simply disgraceful that as many as 200,000 veterans 
are homeless on any given night in America, meaning that one 
out of every four homeless individuals served in the military. 
Often I take pride when my home State of California leads the 
Nation in something. Not so here, where California has by far 
the greatest absolute number of homeless veterans, nearly 
50,000 across the State. It also has the second highest rate of 
veterans homelessness in the country, with fully 2\1/4\ of 
California's veterans experiencing homelessness.
    Nearly as troubling is the tremendous number of veterans in 
the State who are at risk of homelessness due to excessive 
housing cost burdens; 3.4 percent of California's veterans, 
over 73,000 individuals, pay more than half of their income in 
rent, and that is unsustainable for the long term. In my home 
City of Los Angeles, fully two-thirds of low-income veterans 
pay more for their housing than HUD deems supportable, ensuring 
a steady flow into an already overburdened homeless system.
    But I don't want to leave the impression that the news is 
all bad. I know that we will hear today about effective HUD and 
VA programs to address the needs of homeless and low-income 
veterans. In particular, I look forward to hearing from 
witnesses about the potential to expand the availability of 
permanent supportive housing to complement the important 
transitional housing interventions that have characterized the 
VA funded response to veterans homelessness to date.
    Several of today's witnesses testified before the 
subcommittee during our McKinney-Vento reauthorization hearings 
and described the effectiveness and cost effectiveness of 
permanent supportive housing for the chronic and disabled 
homeless. It seems clear to me that we need to target this 
intervention to homeless veterans who suffer from mental health 
and other disabilities while languishing on the streets or in 
shelters, living in their cars, or roughing it in the country's 
backwoods.
    And we need to take the enterprise to a scale that can meet 
the tremendous need. This includes addressing the pent-up 
demand for permanent housing solutions among Vietnam-era 
veterans whom we must never forget, even as we prepare for what 
seems certain to be an overwhelming number of Iraq and 
Afghanistan war veterans at risk of homelessness.
    Indeed, the first such veterans have already begun to 
appear on the streets and in shelters nationwide. And let me 
just mention, we cannot leave out the Desert Storm veterans as 
we take a look at those who still need much assistance to get 
into decent places to live.
    Notably, one of the earliest structured supportive housing 
initiatives was a joint HUD-VASH program in the early 1990's in 
which local PHAs provided Section 8 vouchers and VA medical 
centers furnished case management and clinical services to 
participating veterans.
    Long-term evaluations of the HUD-VASH program have shown 
both improved housing and improved substance abuse outcomes 
among veterans who received the vouchers over those who did 
not. Veterans who received vouchers experienced fewer days of 
homelessness and more days housed than veterans who received 
intensive care, case management assistance, or standard care 
through VA homeless programs alone.
    Analysis also found that veterans with HUD-VASH vouchers 
had fewer days of alcohol use, fewer days in which they drank 
to intoxication, fewer days of drug use, and fewer days in 
institutions. Unfortunately, a relatively paltry number of 
additional HUD-VASH vouchers have been authorized in recent 
years and none appropriated since Fiscal Year 1994. I am 
pleased that our friends on the HUD and VA appropriations 
committees have chosen to reverse this trend, providing for 
7,500 vouchers and associated services funding in Fiscal Year 
2008, HUD and VA conference reports, respectively. I look 
forward to hearing the witnesses' perspectives on that.
    Finally, I conclude by applauding subcommittee member Al 
Green for his legislative work in this area. He will now 
provide details on his two important bills, H.R. 3329, the 
Homes for Heroes Act of 2007, and H.R. 4161, the Veterans 
Homelessness Prevention Act of 2007. But suffice it to say that 
he has offered two critical starting points for the 
subcommittee to consider, not only for expanding the HUD-VASH 
program to the appropriate magnitude, but also for getting HUD 
into the permanent supportive housing development business 
where it needs to be, given tight rental markets in so many 
parts of the country where veterans homelessness is widespread.
    With that, I will recognize our ranking member, 
Congresswoman Capito, for her opening statement.
    Ms. Capito. Thank you, Chairwoman Waters, and I apologize 
for being a little tardy to the hearing. I look forward to this 
hearing, and I thank you for convening this important hearing 
entitled, ``Affordable Housing Needs for America's Low-Income 
Veterans.''
    As a Nation, we owe no greater debt than the one we owe to 
our veterans for their unwavering protection of our very 
freedom, providing suitable housing, affordable housing, and 
supportive services to these individuals should be the goal of 
all policymakers, and I believe it is our goal, our collective 
goal. This hearing represents an important opportunity for the 
committee to take a good look at the housing needs of our 
veterans.
    Recent studies have shown that a disproportionately large 
percentage of the overall homeless population is comprised of 
veterans, and that this percentage continues to grow. This 
growing trend not only raises questions about the adequacy of 
homeless shelters services available to veterans, but also 
about the availability of affordable housing for low-income 
veterans.
    The statistics on this subject are also not encouraging. 
The Department of Veterans Affairs estimates that as of 
September 2006, there were 24 million veterans living in the 
United States and Puerto Rico, and of this population, 196,000 
are homeless on any given night, making up 19 percent of the 
total homeless population and one-third of the adult homeless 
population. There are numerous reasons for this 
overrepresentation of homeless veterans within the overall 
homeless population that could include mental health diagnosis, 
addictions to alcohol and other substances, and physical health 
problems.
    According to an August 2007 GAO study, low-income veteran 
households who rent their home are not faring much better. The 
GAO study found that 2.3 million veteran households that are 
low-income renters, of that 2.3 million, 1.3 million experience 
housing affordability problems. In my own State of West 
Virginia, studies show that between 51 and 55 percent of 
veteran renters are low income. GAO also found that low-income 
veteran households are less likely to receive HUD rental 
assistance than other low-income households.
    I hope that through today's hearing, we can gain a better 
understanding of the housing needs of our veterans. I thank all 
of the witnesses for their dedication to this issue and for 
their opportunity to enlighten us as a committee. Our Nation's 
heroes deserve the very best that we have to offer, and I look 
forward to hearing the testimony. I yield back.
    Chairwoman Waters. Thank you very much. We have gotten an 
agreement from the members on the subcommittee that Mr. Green, 
the author of the bills that we are focusing on today--who also 
has an important bill on the Floor--will go first with his 
opening statement, and then we will go to the other members and 
quickly get to the testimony. Hopefully, Mr. Green, you will be 
around for the question and answer period.
    But with that, I will recognize you for 5 minutes for your 
opening statement.
    Mr. Green. Thank you, Madam Chairwoman. I greatly 
appreciate your convening this most important hearing. And 
Madam Chairwoman, if I may say so, you have truly been a friend 
of those who are living in the streets of life, whether they be 
veterans or whether they be persons without any portfolio at 
all, you have truly been a friend.
    I also would like to thank Ranking Member Capito for her 
efforts to assist and to be a part of making it possible for 
all persons to have a place to call home. The chairman of the 
full committee and the ranking member of the full committee, 
that would be Chairman Frank and Ranking Member Bachus, merit 
our expressions of appreciation as well.
    We have two bills on the Floor--the Homes for Heroes Act 
and the Veterans Homlessness Prevention Act--and when I say the 
Floor, I mean within this committee. Before I go to them, I'd 
like to make just a few comments. Some of what I will say has 
been said, but some things are so important that they bear 
repeating.
    Let me start by paraphrasing words from Father Dennis 
O'Brien. Father O'Brien reminds us that the ultimate protector 
of freedom is the soldier. He reminds us that it's not the 
reporter who ultimately protects freedom of the press; it's the 
soldier. It's not the poet who protects freedom of speech; it's 
the soldier. It's not the activist who protects our freedom to 
demonstrate. He reminds us that the soldier who salutes the 
flag is the soldier who serves beneath the flag. It is the 
soldier's body that is draped by the flag. And it is the 
soldier who allows the protestor to burn the flag.
    The soldier makes real our great American ideals, which is 
why we must demonstrate concern for our soldiers who are 
sleeping in the streets of life. We are blessed to be in the 
richest country in the world, a country where we have homes or 
houses for our cars. They're called garages. And, however, as 
so many are sleeping in the suites of life, we have many who 
are sleeping in the streets of life.
    Approximately 800,000 persons on any given night will sleep 
in the streets of life. We can do better. Two hundred thousand 
of these homeless persons are veterans. Four hundred thousand 
veterans will sleep on the streets of life in the course of a 
year, 400,000 different veterans. We can truly do better.
    In Texas, we have about 16,000 homeless veterans--2,500 in 
Houston alone. We have 1.5 million veterans who have incomes 
below the poverty level; 643,000 of these have incomes at 50 
percent of the poverty level. We can do better. Vets are 11 
percent of the population, and 25 percent of the homeless, 
depending on who's counting. I'm not sure anyone really knows, 
but we do know that we have a significant number and we have 
too many. Someone might ask, how many is too many, Al Green? 
The answer is one--one sleeping in the streets of life is too 
many.
    A report from the National Alliance to End Homelessness 
found that the lack of affordable housing is the primary cause 
of this concern that we bring to your attention today. More 
than 467,000 veterans are severely rent-burdened. That means 
that they are paying more than 50 percent of their income in 
rent, depending on who's counting again. And 43 percent of 
these are receiving food stamps. Among the homeless veterans, 
half have mental illnesses. About 56 percent are African 
American or Latino. Two-thirds of them suffer from alcohol or 
some sort of substance abuse.
    We must be do better, and this is why we've introduced H.R. 
3329, the Homes for Heroes Act, along with Representative 
Michael Michaud. I am so honored to have his assistance. He is 
a person who is chairing the Subcommittee on Veterans Affairs. 
Let me get that title correct. The Veterans Affairs Health 
Subcommittee. I also am honored that Congresswoman Maxine 
Waters, and Representative Patrick Murphy, an Iraq veteran, 
have been of great assistance to us, and they are also 
sponsoring one of these pieces of legislation that I shall call 
to your attention. I'd like to thank their staffs, as well.
    But to H.R. 3329, this piece of legislation, the Homes for 
Heroes Act, would provide a special assistant for veterans 
affairs with HUD. We need someone in HUD who is looking out for 
vets. It establishes a $200 million assistance program for 
permanent supportive housing and services for low-income 
veterans. Someone has to help them as they move from the 
streets of life back into life as we know it. This is why we 
have a $1 million assistance program. It provides grants and 
assistance to these service providers who can help them make 
these transitions. And hopefully, we can have a holistic 
approach that will deal with more than just the homeless 
circumstance that we can see. There are oftentimes 
circumstances that we cannot see that must be addressed as 
well.
    The program will call for 20,000 vouchers annually for 
veterans, and an annual report to Congress on the needs of 
homeless veterans and the steps that HUD will be taking to 
address the needs of these veterans.
    May I have 30 seconds? Thank you, Madam Chairwoman. And 
finally, in the second bill, this is a 2-year, $25 million 
pilot program that will provide for 10,000 vouchers for 
veterans annually for 2008 and $750,000 in technical 
assistance. I just want to conclude with we can do better, we 
must do better. God Bless America, and thank God for the 
American soldier.
    I yield back.
    Chairwoman Waters. Thank you very much. I will now 
recognize the gentleman from Connecticut, Congressman Shays, 
for 5 minutes.
    Mr. Shays. Thank you, Madam Chairwoman, and I thank our 
ranking member as well. Before Mr. Green leaves, I just want to 
tell him how much I admire his work on so many issues, and 
particularly this issue, and I look forward to co-sponsoring 
his bills.
    Madam Chairwoman, I requested, obviously along with others, 
a hearing examining the rising rates of homelessness among our 
Nation's veterans after reviewing a recent analysis of census 
and Veterans Administration records conducted by the Alliance 
to End Homelessness, which concluded that veterans make up a 
disproportionate share of the homeless population.
    While veterans only represent 13 percent of the civilian 
population aged 18 and over, they account for 26 percent of our 
Nation's homeless population. This is simply unacceptable. This 
disparity is especially concerning as our Nation's troops in 
Iraq and Afghanistan return home. While the VA currently has 
over 19,000 transitional housing beds for homeless veterans, 
and has invested in new initiatives specifically targeting at-
risk populations, various Governmental Accountability Office 
(GAO) and VA studies indicate that the VA still lacks the 
capacity to provide timely access to health services for 
veterans at risk for homelessness.
    Veterans are twice as likely to be chronically homeless 
compared to other Americans. Additional obstacles including 
mental health-related problems, weakened social networks, 
highly successful occupational demands, and nontransferability 
of skills to civilian jobs create the need for additional 
supportive services for this population. The National Alliance 
to End Homelessness found that nearly half-a-million of our 
Nation's veterans are severely rent-burdened and devote more 
than 50 percent of their income to rent.
    Permanent supportive housing remains the number one unmet 
need of homeless veterans. Section 8 vouchers provided through 
HUD and VASH, a supportive housing program between Housing and 
Urban Development and Veterans Affairs Supportive Housing, are 
an effective means of getting veterans in housing, but funding 
increases to the program have only kept existing vouchers and 
not expanded program participation.
    While Federal funding for a variety of supportive services 
directed to our homeless veterans continues to increase, many 
homeless veterans remain underserved, and it may be that we 
need to develop better methods of informing our veterans about 
the programs to which they are entitled.
    The VA continues to support programs including healthcare 
for homeless veterans, domicile care of homeless veterans, 
compensated work therapy, and the grant and per diem program. 
Funding for the homeless veterans reintegration program, 
administered by the Department of Labor, has also steadily 
increased since 1998.
    It also seems to me that the identification and expansion 
of successful local programs and community initiatives is also 
important. An estimated 5,000 veterans in my home State of 
Connecticut are homeless. A successful model that I hope we can 
expand upon is one undertaken by Homes for the Brave in 
Bridgeport, which has provided really excellent transitional 
housing and supportive services to our community's homeless 
veterans for the past 7 years.
    We all care deeply about the well-being of our veterans. I 
look forward to hearing from our witnesses their 
recommendations for supporting this vulnerable population. And, 
again, thanks to you, Madam Chairwoman, and to Mr. Green, and 
to my ranking member.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from New York, Ms. Velazquez.
    Ms. Velazquez. I will ask unanimous consent that my entire 
opening statement be included into the record.
    Chairwoman Waters. Thank you very much. Congressman 
Neugebauer.
    Mr. Neugebauer. Well, thank you, Madam Chairwoman, and I 
just want to echo what my other colleagues have said. It is 
important as we have an all-volunteer service in our country 
and we are making promises and representation to the men and 
women who are putting their lives on the line for our country, 
it is important for us to make sure that we keep our promises 
as well as to those who have served in the past. And so I look 
forward to discussing this issue. It is important.
    You know, I think making sure that our veterans have a safe 
and warm place to sleep, but more importantly also, make sure 
that the freedoms and the opportunities that they fought for, 
that they're allowed to participate in. And so along with this 
initiative, making sure that we have job training and making 
sure that as our soldiers come back from war that we are able 
to integrate them back into the economy and to provide jobs and 
opportunity for them, because it is--probably they have a 
greater entitlement to be able to participate and enjoy the 
fruits, the freedoms, and the opportunities in America than 
just about any of us.
    So this is a very important hearing, and I look forward to 
our witnesses today and seeing what we can do to make sure that 
we do take care of America's finest. I thank you.
    Chairwoman Waters. Thank you very much. The gentleman from 
Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chairwoman. I don't need the 
entire 5 minutes. I'd like to express my appreciation to you 
and to Ms. Capito for the hearing, and to my colleague, Al 
Green, for his vision in putting forth legislation to deal with 
what I consider to be one of the major problems facing us.
    I've had many veterans say to me that we seem to be 
supportive while they are in battle, but when they return, we 
seem to forget them. There are a potpourri of complaints they 
register, and one of them was very clear to me. As I mentioned 
before, in my district, we do a stand down in August of each 
year, and we average about 600 veterans. I don't even know how 
the communication gets out, but they all show up at Emanuel 
High School and we go through the whole process of providing a 
meal, shaves, haircuts, some medical attention, dental 
attention, and it is amazing that after this one Saturday, they 
return to, in many instances, the banks of the Missouri River 
where many of them stay.
    I represent, of course, Harry Truman's district. This seat 
is Harry Truman's in a large sense. And the 33rd President of 
our country was someone who understood what our veterans 
experienced when they return home, and so what he did at the 
end of World War II was to begin the process of providing 
housing for veterans. The first unit was actually in our 
district. It was called Ridgeway Heights. It was known previous 
to that as Boulevard Village. But at any rate, it provided 
housing for homeless veterans way back after World War II. 
We've not done enough since then. Today it's a housing complex 
for veterans as well as other citizens. There are about 200 
people who still live there at Ridgeway Heights.
    And I agree with our President, my leader in our 
congressional district, Harry Truman, that we need to take care 
of our veterans. I also believe that when you serve, you 
deserve, and that is exactly what I compliment my colleague for 
seeing, and I look forward to receiving the testimony of our 
witnesses and delving even deeper into this issue.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. The gentleman from 
New Jersey, Mr. Sires.
    Mr. Sires. Thank you, Madam Chairwoman, for this important 
hearing. And I want to compliment my colleague, Congressman 
Green, for all his hard work and for always being there for the 
veterans.
    I just have a couple of statements. I served as a local 
mayor, and one of the problems that we had in this community 
was the housing that was built, apartments that were built for 
veterans after the war, it was turned over to the housing 
authority at one stretch. And HUD was supposed to manage the 
people who were there, collecting the rents and everything 
else. But one of the problems that we encountered was that the 
housing authority was not allowed to invest the money in 
repairing and maintaining the building.
    One of the things that I want to find out is if this policy 
is still there, because there are still houses that were built 
after the war, apartments, basically--I come from a very urban 
area--that are part of the housing authority. And somewhere 
along the line, these are veterans who are living there. And if 
we don't allow some of the investments to make their life 
better, I think the policy needs to be reviewed.
    The other issue I think we have to look at is, before the 
veterans become homeless, what can we do to assist those 
families? Because I think that's where some of the problems can 
be headed off. As they serve in this army, it puts a great deal 
of economic pressure on the families as they come back, they're 
practically in debt because they just can't do it economically. 
So I think a combination of both things, just before they come 
back, and if you could address that issue on the policy or look 
into it, I know that is disruptive, but that's what I wanted to 
say. Thank you very much.
    Chairwoman Waters. Thank you very much. Next, I will 
recognize Mr. Donnelly.
    Mr. Donnelly. Thank you, Madam Chairwoman, and I want to 
thank the ranking member and Mr. Green for your tremendous work 
in this area. I am blessed to be a member of both the Financial 
Services Committee and the Veterans Affairs Committee, so this 
is an issue of significant importance to me.
    Last week, I visited some of the homeless shelters in my 
district in order to see how we were dealing with the needs of 
our veterans and how we were appropriately taking care of them. 
This is not just another opportunity for the Congress to work 
on a program. This is an obligation that we as a country have 
to the people who have given us the very freedom that we have 
every day. And so it is critically important.
    We have to get this right. This is one of those things that 
we cannot take a chance on getting wrong, and so, Mr. Green, 
your work has been extraordinarily important to all of us, and 
we appreciate it. I look forward to being part of this.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. Mr. Ellison was here, and I think he 
left, so we will proceed with our first panel. I'd like to 
introduce our first witness panel. First, we have Mr. Mark 
Johnston, Deputy Assistance Secretary for Special Needs, U.S. 
Department of Housing and Urban Development.
    Next, we have Mr. Pete Dougherty, Director, Homeless 
Veterans Programs, U.S. Department of Veterans Affairs. I want 
the members to be aware that due to the short notice VA 
received regarding this hearing, I've extended the deadline for 
submission of their written testimony for the record. Mr. 
Dougherty will provide oral testimony and will be available for 
questions.
    And finally, we have Mr. David Wood, Director, Financial 
Markets and Community Investment, U.S. Government 
Accountability Office.
    Thank you all for appearing before the subcommittee today, 
and without objection, your written statements will be made a 
part of the record. You will now be recognized for a 5-minute 
summary of your testimony.
    We will start with Mr. Johnston.

  STATEMENT OF MARK JOHNSTON, DEPUTY ASSISTANT SECRETARY FOR 
SPECIAL NEEDS, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Johnston. Thank you, Chairwoman Waters, Ranking Member 
Capito, and members of the subcommittee. I am pleased to be 
here today to represent Secretary Alfonso Jackson of the U.S. 
Department of Housing and Urban Development. The Secretary 
recognizes the moral responsibility HUD has to its veterans. 
This is especially true for those who have served our country 
who now sleep on the streets of this great Nation.
    The Department administers a variety of housing programs 
that can assist veterans. These include the Housing Choice 
Voucher program, the Public Housing program, the Community 
Development Block Grant program, and HOME Investment 
Partnerships. These programs, by statute, provide great 
flexibility so that communities can use these resources to meet 
their particular local needs, including the needs of their 
veterans.
    In addition to these programs, Congress has authorized a 
variety of targeted programs for special needs populations, 
including homeless persons. Unfortunately, veterans are well-
represented in the homeless population. HUD is committed to 
serving homeless veterans and recognizes that Congress charges 
HUD to serve all homeless groups. HUD provides an array of 
housing and supportive services to all homeless groups, 
including homeless veterans.
    I'd like to take a moment to outline our activities that 
specifically relate to serving homeless veterans. In February 
of 2007, HUD competitively awarded a total of nearly $1.3 
billion in homeless assistance. A record 5,288 projects were 
awarded funds. It's important to note that veterans are 
eligible for all of our homeless assistance programs, and HUD 
emphasizes the importance of serving veterans in its grant 
application.
    A total of 205 applications were submitted wherein at least 
half of the program clients would be veterans. Of that number, 
90 percent of these veteran-focused projects were successfully 
awarded funding. We awarded just over $41 million to these 
projects. In addition, we awarded funds to projects that will 
be serving a smaller share of homeless veterans, but serving 
veterans nonetheless. When you combine all projects serving 
veterans, targeted and non-targeted projects, we awarded funds 
to more than 1,420 projects for over $342 million.
    To underscore our continued commitment to serve homeless 
veterans, we have highlighted veterans in our annual planning 
and grantmaking process. In the grant application, for 
instance, we score applications on whether organizations that 
represent homeless veterans are at the planning table. Because 
of HUD's emphasis, over 90 percent of all communities 
nationwide have homeless veteran representation.
    Many of those living on our streets in this country are 
unfortunately veterans. The Administration's goal of ending 
chronic homelessness is helping to meet the needs of these 
veterans. Because the chronically homeless face many 
challenges, it's imperative to involve many partners. HUD, the 
VA, the Department of Labor, the Department of Health and Human 
Services, and other agencies that make up the Interagency 
Council on Homelessness, have worked together to achieve the 
goal of ending chronic homelessness at the Federal level and 
work regularly with State and local partners.
    With a sustained effort since 2002, we are starting to see 
real results. HUD just recently announced an 11.5 percent 
reduction in chronic homelessness nationwide between 2005 and 
2006. This is the first time since the Federal homelessness 
programs were created in 1987 that this country has seen a 
reduction of homelessness of any kind. We are currently 
reviewing the 2007 data to see if this is a trend, and we'll be 
releasing that information in the next couple of months.
    To further illustrate HUD's involvement in addressing the 
needs of veterans, I represent HUD on VA's Secretarial Advisory 
Committee on Homeless Veterans. In fact, I returned just 
yesterday, as did Mr. Dougherty, who oversees this committee, 
from a 2-day advisory committee meeting where we met with 
various Federal agencies to discuss the programs and how they 
can better meet the needs of homeless veterans. The Department 
also serves veterans by providing technical assistance. In one 
recent effort, we dedicated $350,000 to enhance assistance to 
providers serving homeless veterans, to update existing 
materials to help them, and to coordinate better with VA's 
local planning process.
    In conclusion, I want to reiterate my and HUD's desire and 
commitment to help our veterans, including those who are 
homeless. We will continue to work with our Federal, State, and 
local partners to do so.
    Madam Chairwoman, I would be glad to address any questions 
at the appropriate time.
    [The prepared statement of Mr. Johnston can be found on 
page 84 of the appendix.]
    Chairwoman Waters. Okay. Thank you very much. Next we will 
have Mr. Peter--what is the correct pronunciation of your name?
    Mr. Dougherty. I pronounce it ``Dougherty.''
    Chairwoman Waters. Dougherty. I've heard three different 
pronunciations, including the one I first started off with. 
Thank you very much.
    Mr. Dougherty. Ms. Waters, actually, we've had about 10 
different ways to pronounce it in my career.

 STATEMENT OF PETER H. DOUGHERTY, DIRECTOR, HOMELESS VETERANS 
         PROGRAMS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Dougherty. Chairwoman Waters, I'm very pleased to be 
here with you and the members of the subcommittee to discuss 
this very important issue. At the Department of Veterans 
Affairs, our mission is clear and consistent: to do all within 
our authority and ability to help those men and women readjust 
back successfully into civilian society after their military 
experience ends. This adjustment is difficult for many, 
particularly those who are homeless.
    The Department of Veterans Affairs administers a variety of 
programs, many of which you have already outlined, that help to 
reintegrate veterans back into mainstream society. We are the 
Nation's largest single provider of healthcare. We provide 
healthcare to more than 5 million veterans each year, and we 
provide healthcare specifically to more than 100,000 veterans 
who are identified as being homeless.
    We're second only to Social Security in the amount of 
economic benefits we provide to members of this society. We 
provide nearly 3 million veterans and their families with 
benefits, $27 billion in compensation benefits and nearly 3 
billion in pension benefits annually.
    Veterans who are homeless are far more likely to be 
eligible and receive benefits once identified and once they 
have claims that are brought to us. We have a single family 
home loan guarantee program that was originally started at the 
end of World War II, which was really designed to help get 
veterans into housing in ways that private sector non-veterans 
could not do. That program has been very successful over the 
years and has helped many of those low-income veterans who are 
even marginally employed to get in without having to make 
downpayments.
    The Department's mainstream programs that we provide are 
also supplemented by many homeless-specific programs. We 
provide more than 15,000 veterans transitional housing services 
in virtually every State in the union. We have over 8,500 units 
available today. We are already approved to have 12,000, and we 
will soon announce funding announcements that will add housing 
for those veterans.
    We also provide over 6,000 units of housing in our 
residential treatment program in VA-operated programs under our 
domiciliary care programs and other residential treatment 
programs. Madam Chairwoman, you've already mentioned the very 
successful HUD-VASH program, and that provides nearly 2,000 
veterans with a safe, decent place to stay.
    Our efforts to reduce homelessness are in fact having 
success. We are tracking numbers that indicate the number of 
veterans who are homeless is going down similar to what HUD has 
reported. While that is positive, as Mr. Green indicated, far 
too many veterans are homeless in America.
    You specifically referenced, and I will respond back about 
the HUD-VASH program. As you mentioned, the HUD-VASH program is 
a very successful program. The Appropriations Committee has at 
least agreed between the two Houses to support an increased 
number of HUD-VASH vouchers. That program is very, very 
successful in helping those veterans move forward.
    We would look forward to the opportunity to case manage 
additional vouchers. We've testified in favor of additional 
vouchers and think that the ability to manage what we think is 
the best housing by HUD and supportive services by the 
Department of Veterans Affairs is a very successful program.
    I also would be remiss if I did not mention that the 
Administration has put forth some legislative proposals, 
including one that would allow us to provide supportive 
services grants to veterans living in permanent housing. 
Senator Akaka has introduced that in the Senate as part of S. 
2273. That legislation is pending and has not had any action 
yet.
    We look forward and have continued to be an active partner 
with our friends at HUD and the other Federal agencies, much of 
which we are happy to talk about here with you. We think this 
is an important issue, and as always, we're willing to aid this 
committee's effort in any effort to make housing more available 
for low-income veterans.
    Thank you.
    Chairwoman Waters. Thank you very much.
    Mr. David Wood.

  STATEMENT OF DAVID G. WOOD, DIRECTOR, FINANCIAL MARKETS AND 
   COMMUNITY INVESTMENT, US. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wood. Thank you, Chairwoman Waters. My statement today 
is based on a report that we issued in August 2007 in response 
to a congressional mandate. The conference report accompanying 
the Fiscal Year 2006 Quality of Life and Veterans Affairs 
Appropriations Act directed GAO to report on housing assistance 
to low-income veterans.
    In consultation with the Committees on Appropriations in 
both Houses of Congress, we focused our work on veterans who 
rent their housing. We examined four topics:
    First, the income and demographic characteristics of 
veteran renter households, including the extent to which such 
households were facing rent affordability problems.
    Second, the extent to which the Department of Housing and 
Urban Development's rental assistance programs recognize 
veteran status when determining eligibility.
    Third, the extent to which local housing agencies and 
private landlords that administer HUD's programs offer a 
veterans' preference when selecting tenants. And finally, the 
extent to which veterans actually received rental assistance 
from HUD.
    To identify the characteristics of veteran rental 
households, we used data from the Census Bureau's 2005 American 
Community Survey. Among other things, we found that in 2005, 
there were about 4.3 million veteran renter households 
nationwide, and just over half were considered low income; that 
is, their incomes were 80 percent or less of their area's 
median income. About half of those low-income veteran 
households, or about 1.3 million in total, had housing 
affordability problems. That is, their rental costs exceeded 30 
percent of their household incomes.
    Compared with non-veteran renter households, veterans were 
somewhat less likely to be low income or to have a housing 
affordability problem. However, they were more likely to 
include a household member who was elderly, aged 62 or older, 
or who had a disability. In reviewing HUD's major rental 
assistance programs, we found that they're not required to take 
a household's veteran status into account when determining 
eligibility. However, veterans can benefit from HUD's programs 
as long as they meet the income restrictions and other 
eligibility criteria.
    The local housing agencies that administer HUD's programs 
are authorized, but are not required, to offer preferences in 
selecting tenants. Such preferences may be offered to veterans 
or to others, such as the elderly, families with children, or 
homeless persons. Our contacts with many of the largest 
agencies revealed that most did not offer a preference for 
veterans. Specifically, of the 34 largest agencies that 
administer the public housing program, 14 offered a veterans 
preference. And 13 of the 40 largest agencies that administer 
the Housing Choice Voucher program did so.
    In addition, our work indicated that the private landlords 
participating in HUD's project-based programs generally did not 
offer a veterans preference. To determine how many veterans 
were actually assisted by HUD, we matched data from the 
Department of Veterans Affairs with HUD's data on program 
tenants. We found that at least 250,000 low-income veteran 
households were assisted by HUD's programs in 2005. That was 
about 11 percent of all such households.
    However, as noted previously, veteran households were less 
likely to receive HUD rental assistance than their non-veteran 
counterparts. About 19 percent of the non-veteran households 
were assisted through HUD programs. Our discussions with local 
and Federal agency officials identified some potential reasons 
for this difference. These included variations in housing 
needs, infrequent use of veterans preferences, and requirements 
that direct some assistance to extremely low-income households.
    Chairwoman Waters, that concludes my prepared statement, 
and I'd be glad to respond to any questions that you or other 
members may have.
    [The prepared statement of Mr. Wood can be found on page 97 
of the appendix.]
    Chairwoman Waters. Thank you very much. We will now proceed 
with questions for panel one. Mr. Dougherty, I understand that 
permanent supportive housing providers who access HUD McKinney-
Vento funds and other sources of services financing often use 
those funds to pay for their own staff or that of nonprofit 
partners to deliver services. By contrast, I understand that 
under the HUD-VASH initiative, VA staff themselves deliver 
services.
    Can you describe the pros and cons of each approach, and 
whether the VA currently has authority to increase the extent 
to which it contracts out the delivery of supportive services 
to homeless veterans and permanent supportive housing, or 
should have increased authority to do so?
    Mr. Dougherty. Madam Chairwoman, the HUD-VASH program 
operates as you have indicated. We provide clinically trained 
VA employees who provide case management services to those 
veterans who are in permanent housing under the public housing 
authority. As you noted in your opening statement, the success 
of that program has been very good. Veterans who participate in 
that program get the benefit of direct access.
    When you're working with these veterans, many of them have 
long-term and chronic health problems, and having a VA case 
manager who can work with the Department because they're a 
Department employee, to help them access benefits and needed 
healthcare services, has been very, very beneficial.
    Now we don't have any specific authority, as you know, 
having served on the House Veterans Affairs Committee as well. 
Permanent housing is a new concept for us. We, by statute, have 
not had the ability to do this in the past. We prefer not to be 
in the housing business. But we think the pilot program that I 
described briefly under S. 2273 would give us the ability to 
look at the other form of supportive housing--services grants 
to organizations that could provide supportive services to 
veterans in permanent housing.
    We think that would be successful, based upon what the 
community and through our CHALENG assessment meetings tell us, 
that there is a need for supportive services and permanent 
housing. It is a very heavy demand at this time.
    Chairwoman Waters. Thank you very much. Mr. Johnston, HUD's 
homeless assistance programs clearly serve many veterans. How 
good are your providers at tracking the veteran status of 
program participants? In particular, I'm interested in how 
successful they are at capitalizing on opportunities to obtain 
income and other benefits for veteran clients.
    Mr. Johnston. Okay. We encourage the communities and the 
grantees to serve veterans in a couple of different ways. The 
first is, we give points in our competition for the continuum 
of care, which represents all of our competitive programs, and 
that represents about $1.3 billion. To the extent they include 
organizations that represent veterans at the planning table 
when the decisions are made for which projects will be funded, 
they get a higher score.
    As a result of that emphasis on the score and the 
competitive nature of our programs, we have a high level of 
participation. About 90 percent of all communities in the 
Nation do have active veteran participation at the planning 
table. Moreover, when we collect information from each awarded 
grantee at the end of each year, what we call the annual 
progress report, we ask for specific information, such as 
veteran status for every client being served, as well as 
income. And we look at about eleven different income 
categories--veterans' benefits, SSI, SSDI, Medicaid, etc.
    So we have a pretty good handle within projects the extent 
to which they can increase their income, and we heartily 
encourage that increased income. In fact, they get a higher 
score for that as well. If they are able to engage veterans and 
non-veterans in getting into mainstream programs, we give them 
extra points in our competition.
    Chairwoman Waters. So I suppose your answer is that you are 
doing everything that you can to make sure that veterans are 
getting their benefits and what they have, what they're 
eligible for? Because as I understand it, there are homeless 
veterans who have not been able to negotiate the system and to 
get disability benefits and other benefits that they're 
eligible for. Most of us in our offices receive many, many 
calls from veterans to assist them, and I have one person in my 
Los Angeles office who is totally dedicated to working with 
veterans. We have to work very, very hard to sometimes get them 
the disability benefits in particular that they are eligible 
for. And sometimes it takes us months in order to correct what 
we think are problems that have been made in the way the 
benefits are allocated. But I guess the bottom line is, do you 
think that your people are doing a good job with this?
    Mr. Johnston. Well, we could clearly always do better. One 
of the benefits of the program that this committee has 
authorized, the Supportive Housing program, which is our 
largest homeless program, is that it's not just for housing. We 
spend about $435 million a year on services to address the very 
issue that you've raised. Most of that money for supportive 
services goes to case management, which helps clients go 
through the system and access those various Federal benefits 
and State and local benefits.
    So we can always do better, and we encourage increased 
access to the programs, and continuums that do a good job get a 
higher score and therefore get more funds.
    Chairwoman Waters. All right. Thank you very much, and I 
think I'm going to ask my staff to assist me in making sure we 
understand how you can identify which veterans you have 
actually connected with their benefits so that perhaps they can 
get off the streets and not have to rely on our system. With 
that, Ms. Capito?
    Ms. Capito. Thank you, Madam Chairwoman. I have a question, 
a real life scenario. I have a veteran who returned from Iraq 
with very severe injuries, both physical and mental injuries--
he's 100 percent disabled, I believe--and he is a single father 
now. When he came back, he went back to live with his parents, 
and he has asked for our assistance to try to help him get into 
a housing development or public housing situation. He said that 
what he has found is that his disability income exceeds any 
kind of help that he could possibly get.
    Do some of these vouchers take into consideration that 
people who have very high disabilities who may need additional 
help, can't hold a job, and so should be able to qualify for 
these housing benefits?
    Mr. Johnston. Let me begin, and Pete may jump in as well in 
terms of HUD-VASH. The Section 8 program has a requirement that 
30 percent of the person's income would be contributed towards 
rent. And so if they have a very modest income, then their rent 
contribution will be very modest. If a person has no income, 
then they don't contribute any.
    Ms. Capito. But is their retirement and disability from the 
VA considered income?
    Mr. Johnston. It isn't considered income.
    Ms. Capito. Yes. Okay. I'm sorry. Go ahead.
    Mr. Dougherty. If I could add onto that, one of the things 
that is in the appropriations act gives the Department of 
Veterans Affairs some significant authority--if passed, it 
would give us the ability to waive out some of those 
requirements. So if we said that veteran needed that kind of 
housing, they would be able to be placed in that housing.
    Ms. Capito. And that can be done through what mechanism?
    Mr. Dougherty. Under the appropriations bill that has been 
agreed to between both Houses, it gives the Department of 
Veterans Affairs the ability, if we make the referral of that 
veteran for that kind of housing--
    Ms. Capito. From the VA?
    Mr. Dougherty. If the VA made the request, then that would 
basically trump the normal local housing authority 
requirements. Because income is in fact considered otherwise.
    Ms. Capito. Yes. That's interesting. We also, in the State 
of West Virginia, have just opened a State veterans nursing 
home, which I think is another issue. I mean, I know there are 
different age groups that we're looking at here, and certainly 
our older veterans are reaching a point where they're not going 
to be able to stay in their own homes. They may need some 
assistance either that they haven't needed in the past, and 
because of some injuries that they may have sustained as long 
ago as World War II, may need that additional assistance.
    Is this a growing problem or is this something that the 
VA--because I know there's a shortage of beds that are 
specifically designated for veterans.
    Mr. Dougherty. I'm not the technical expert. Actually, Mr. 
Basher, who will testify later, and is a State director of 
veterans affairs may be better to answer this than I am. But 
clearly, we look at the demographic trends. If you look at the 
Department of Veterans Affairs and you look at veterans 
generally, we're about 20 years ahead of the rest of the 
country when it comes to geriatrics and extended care needs. We 
have greatly expanded the number of nursing home State 
partnerships across the country as a result of that.
    Ms. Capito. All right. Thank you.
    Mr. Dougherty. As well as our own internal programs.
    Ms. Capito. Thank you. I would just like to say that I 
think our veterans are going to be best served when we have 
great coordination between agencies. And I think of course 
we're seeing that in the panel today, the fact that you all 
were in a meeting yesterday, obviously talking about this very 
issue I think is a step in the right direction, and I think 
it's something that we need to really reaffirm and more 
affirmatively work on so that we can maximize the resources for 
our veterans.
    Thank you.
    Mr. Dougherty. You make a very good point. And if I might 
add, one of the things that the Department of Housing and Urban 
Development did is to try to make sure that the people being 
served were being identified, so that their accounting, if you 
will, is now better. And they're using a methodology now that 
if we can sort of crack the nut with local authorities, we 
allow VA to better identify who is being served.
    In the City of New York, for example, if you're coming into 
the New York emergency services shelters, names, dates of 
birth, and Social Security numbers are included. What our 
benefits offices are now able to do is to run that information 
from the City against VA benefits records. That gives us an 
opportunity to know there may be 40 homeless veterans living in 
a certain location where the opportunity to get them benefits 
and healthcare services exists in a way that it did not exist 
in the past.
    That coordination has been very helpful. I think it will be 
very helpful in the next few years in helping to make sure more 
of those veterans get access to healthcare and benefits from 
the VA.
    Chairwoman Waters. Thank you very much. Without objection, 
we'll continue in the order that we first gave our opening 
statements, giving the author, Mr. Green, who must get to the 
Floor, an opportunity to raise questions now. We'll recognize 
you, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman. And thank you, 
witnesses, for your testimony. Let me start with Mr. Johnston. 
Mr. Johnston, sir, I see this as an opportunity for HUD and 
Congress to work together for the benefit of our veterans. I 
assume that you see a similar opportunity. Does HUD look 
favorably upon the position that we have articulated today?
    Mr. Johnston. The Administration and therefore HUD does not 
yet have a position on either bill, so I'm not able to discuss 
them at great length in terms of the Administration's position. 
I will observe that I think there are some very good elements 
in the bills. And let me just jump on one that there is a need 
for that and we have been addressing, and that is the special 
advisor who would be at HUD within the Office of the Secretary.
    We do have a special advisor on a full time veteran, who is 
a special advisor on homelessness and veteran issues across the 
Department. The person doesn't report directly to the 
Secretary, but works directly with me on a regular basis. And I 
think there are some commonalities that perhaps we could even 
do better on that are included in your bill that we could even 
do administratively.
    Mr. Green. Let's speak for just a moment about the 
vouchers. Mr. Dougherty indicated that additional vouchers 
would be welcome. Would HUD support additional Section 8 
vouchers?
    Mr. Johnston. Traditionally, our position has been that 
HUD-VASH was a very well-done demonstration, and I can speak 
from personal experience. I was at HUD back then when we 
developed it and I personally helped develop the HUD-VASH 
program with Paul Herrera and others at the VA. So to see this 
connection of HUD doing housing, and another agency such as the 
VA doing services, I think was a great example of what can 
happen.
    We, about a year after HUD-VASH started up, proposed--
    Mr. Green. Mr. Johnston, if I may, my time is very limited, 
and pardon me for saying this: no disrespect intended, but 
sometimes when folks finish, I don't know whether they have 
said ``yes'' or ``no.'' So I have to ask you: Could you kindly 
indicate whether HUD, yes or no, would welcome the additional 
vouchers that Congress would accord our veterans?
    Mr. Johnston. To be honest, I can't give you--I'd be glad 
to answer the question, but I really can't give a simple yes or 
no answer to that question. Could I just take two sentences?
    Mr. Green. Of course.
    Mr. Johnston. We created in 1992 the Shelter Plus Care 
program modeled on HUD-VASH. It's our largest permanent housing 
program that targets disabled persons, including veterans. And 
that's a wonderful program that HUD has been funded from the 
Congress for years on.
    Mr. Green. Well, I appreciate that, and I appreciate much 
of what you've said. But I'm detecting some hesitation and 
perhaps a degree of consternation in the way you are presenting 
this. It seems to me that the empirical evidence supports what 
we are talking about. It seems almost intuitively obvious to 
the most casual observer that this kind of assistance is 
needed. But I detect a little bit of pushback from HUD, and I'm 
being candid with you because it causes me some concern to 
think that HUD is going to have some pushback.
    Now one of the things that I'm concerned about also is 
whether HUD is going to--perhaps next week or next month or 
within the foreseeable future or before Congress can finish 
what we're doing and try to work with HUD in a cooperative 
way--have some program that is going to address homeless 
veterans and the need for assistance that in some way would 
cause us not to be able to deliver as much as we can from 
Congress? Is there something on the horizon that HUD is about 
to do?
    Mr. Johnston. Well, our traditional approach, which 
continues today, is to use our mainstream housing programs, 
programs like Section 8, public housing, CDBG, and HOME--
    Mr. Green. Am I to take that as a yes? That you're about to 
do something?
    Mr. Johnston. Well, I guess we'd--I guess my answer would 
be we've already done something, and that is we submitted a 
budget--
    Mr. Green. Well, you can tell me what the something is. But 
in Texas, when a person talks the way you're talking, we say 
they are ``fixing to do something.'' Are you fixing to do 
something?
    Mr. Johnston. Our approach is to give maximum flexibility 
to localities and let them make the call.
    Mr. Green. Sir, we're talking about helping veterans. Can 
you kindly indicate if you're about to do something? We all 
want to be on the same page.
    Mr. Johnston. Okay.
    Mr. Green. Are you fixing to do something?
    Mr. Johnston. We do not have a specific proposal to create 
a brand new program for--
    Mr. Green. Are you developing a proposal in response to 
what we are proposing?
    Mr. Johnston. We are reviewing within the Administration 
these two bills.
    Mr. Green. Well, I would hope that we can work together. My 
time is up. Madam Chairwoman, I sincerely hope that HUD will 
work with us so that we can work efficaciously for our 
veterans, and I yield back.
    Chairwoman Waters. Thank you very much. Next, we will 
recognize Mrs. Biggert from Illinois for questions.
    Mrs. Biggert. Thank you, Madam Chairwoman. I'm sorry that I 
missed the testimony, so I hope I don't ask a question that has 
already been asked.
    One of the panelists later on has a recommendation that all 
veterans, when they're exiting military service, should be 
assessed as to their housing status, and that the VA should 
have resources to assist veterans to access housing. I will 
start with Mr. Dougherty. Do you think that's something that 
should be done or can be done?
    Mr. Dougherty. The Department of Veterans Affairs 
coordinates some with the Department of Defense and with the 
Department of Labor on transition assistance programs. The 
access and availability to healthcare services from the VA and 
other benefits, both employment and housing benefits are 
reviewed.
    I'm not aware that there is a determination made about how 
that person will specifically be housed once they leave 
military service. My experience would be that many people when 
they're first looking at discharging may not have a good answer 
of that in their own mind. They may have a variety of options 
they think may have available to them that may or may not come 
to pass after that.
    I do think one of the things that we have said at the 
Department of Veterans Affairs consistently is that those 
veterans who are discharging, particularly who think they have 
a problem in their readjustment and may have some condition as 
a result of their military service, are encouraged to come 
forward. Quite frankly, when they do, we think that helps us to 
put them specifically in connection with both healthcare needs 
that they have as well as the benefits assistance that they 
need.
    Mrs. Biggert. Thank you. Mr. Johnston, do you see the 
homeless veterans coming forward to you after they've been out 
of the services?
    Mr. Johnston. Yes. But the data suggests that it has often 
been 10 years or more between when they leave the service and 
become homeless. So there are clearly a number of factors being 
affected there. When you look at the demographics of veterans 
and--the National Alliance report did a wonderful job, I think, 
in sort of summarizing a lot of the census data on this--
relative to non-veterans, they do pretty well in a number of 
different areas, income, for instance, and unemployment, lower 
unemployment than non-veterans, and lower poverty rates than 
non-veterans.
    So there obviously must be some other reasons that veterans 
are disproportionately represented in the homeless population, 
and it certainly seems to be that post traumatic stress 
syndrome may be one of those factors that contributes to their 
homelessness, not immediately, but over time, and effects of 
substance abuse, mental health, and so forth, and then over 
time they, you know, more often than in the general population, 
fall into homelessness.
    Mrs. Biggert. You know, in one of the other hearings that 
we've had recently, we've been looking at a couple of bills and 
looking at the definition of homeless, and between whether it 
should be as probably now is the priority of the single person 
who is homeless versus the family with children. Do you think 
if the definition were changed that this would cut down on the 
number of homeless veterans who would be able to be served, or 
wouldn't it make any difference?
    Mr. Johnston. Well, I attended one of those hearings 
recently, and the challenge is that HUD has about 160,000 beds 
for homeless people, and there are about 750,000 homeless 
people. We have far more homeless people than we have beds, so 
to expand the definition beyond 750,000 to something in the 
bill, for instance, which is in the range of 10 to 12 million, 
I don't know what impact that would have on serving more 
people, given the number of beds that we have.
    Mrs. Biggert. Thank you. My time has just about expired. 
I'll yield back. Thank you.
    Chairwoman Waters. Thank you very much. Ms. Velazquez.
    Ms. Velazquez. Thank you, Madam Chairwoman. Mr. Dougherty, 
it has come to my attention that the Dow Fund, a not-for-profit 
organization based in New York City, received a veterans grant 
to open a shelter in the Brooklyn part of my district. I am 
fully supportive of compassionate and effective programs for 
veterans, but I have to say that the process through which this 
project has been handled with the community raises many 
questions. And this is not a NIMBY issue, it's not a not-in-my-
backyard issue. Can you describe the process and criteria used 
to rate different grant proposals? And do they include a 
community consultation component? Do you require grantees to 
engage the community during the planning process?
    Mr. Dougherty. Our program is not a local community-driven 
process. It's a national competition. The need in the community 
is one of the very serious factors that's taken into 
consideration. I can't tell you about the specifics without 
going back and looking, but I certainly would be happy to--
    Ms. Velazquez. Will you do that?
    Mr. Dougherty. Absolutely.
    Ms. Velazquez. Let me explain to you why. Yes, there is an 
astronomical increase in homelessness among veterans in New 
York City. But the same is true with low-income communities who 
have been forced out from their own communities. The community 
where this shelter is going to open has within five blocks two 
other shelters with 600 beds. For too long, the government in 
New York City neglected this community. We came together. We 
fought back, and there is a renaissance. What I'm asking is, go 
back and make it part of your rule that there must be community 
consultation.
    Mr. Dougherty. Well, although we don't have a community 
consultation, I think, in the phrase that you're using, we do 
solicit that in the application process. It strengthens the 
application to show that there is community partnership and 
agreement for the program to go forward.
    Ms. Velazquez. In this case, it didn't happen. Mr. 
Dougherty, given the fact that there are 162,000 soldiers in 
Iraq as of November 24, 2007, and that we have not been able to 
solve veterans' homelessness for the soldiers of wars dating 
back to World War II, how is the Department preparing for the 
imminent surge in service demand?
    Mr. Dougherty. Well, we are doing a number of things 
differently than we did before. We make the availability to 
healthcare for veterans who come back from Iraq and Afghanistan 
much easier than it has ever been before for those veterans to 
access the healthcare system.
    I get asked these kinds of questions fairly often. We never 
had, with the Vietnam generation and thereafter, any vet 
centers. We didn't have any place in the community where you 
could go talk to a combat veteran about the experience that you 
had and what has happened. We didn't have any homeless programs 
within the Department of Veterans Affairs, and we didn't have 
hundreds of community providers, some of whom are going to be 
represented in the next panel, who are out there helping to 
make us aware of the need.
    We aggressively outreach to any veteran, particularly those 
who have served in Iraq and Afghanistan. I think the different, 
as Mr. Johnston mentioned a few moments ago, is that 
historically we wouldn't see many of these veterans for many, 
many years. Our thrust with the veterans coming back from Iraq 
and Afghanistan is to see them early, to get them access to 
healthcare and benefits assistance now so that they can, in 
fact, do better.
    We have had over 400 veterans from Iraq and Afghanistan 
served in homeless specific programs already. What we can tell 
you is that many of them are doing better than all other 
veterans we see as far as getting back into independent living 
and getting a good job once again. That is our goal--to 
readjust all veterans back into society's mainstream.
    So while I agree with you that it's very, very sad to see 
any veteran who is homeless, particularly those who have gone 
voluntarily to serve their Nation, we're hoping that we are 
going to catch many of these who have significant mental 
illness problems. That's the most significant issue we found 
among this newest group of veterans. The mental illness issue 
is the most significant problem, particularly combat-related 
PTSD. That is the major source of the problem for many of them. 
Their readjustment back has been blocked by that.
    Coming in, getting treatment, and then getting on with 
their lives and getting back into independent housing and 
employment is significant. We think we're not going to have a 
surge. We're hoping that we're going to do what good healthcare 
ought to be able to do, and that is to address the healthcare 
problem as it is emerging, and address it appropriately.
    Ms. Velazquez. Thank you.
    Chairwoman Waters. Thank you very much. Mr. Shays.
    Mr. Shays. I thank you, Madam Chairwoman. I wrestle with 
what we do for our veterans like everyone else in Congress. It 
seems to me that we are concerned about their health, about 
their educational needs, about their housing needs, and I'd add 
into that, employment.
    When I was in the Peace Corps, when I came home, I was 
unemployed for 3 months. It was the most devastating thing I've 
ever gone through in my life, because I thought the whole world 
would be waiting, and I was looking for one particular kind of 
job, and it didn't open up. But I was aware that my wife was 
aware that I didn't have a job. I began to doubt my 
capabilities. It had tremendous impact on, frankly, my mental 
state.
    And I'm just wondering how much of this is job-related. In 
the presentation of the GAO, there is the background that about 
80 percent of veterans own their own homes; 80 percent own 
their own homes, a significantly higher percentage than was the 
case for non-veterans households. So, in one case of the 
homeless, veterans tend to be--there's a greater rate of 
homelessness among veterans, but ironically, among those who 
own their own homes, there is a greater percent of veterans who 
own their own homes versus not. It's the exact opposite.
    But then of those who rent, the 20 percent who rent, a good 
chunk of them, an estimated 2.3 million or about 53 percent, 
were low income. So what I'd like to do is just ask how much of 
the homeless problem is just veterans who come home who--and I 
have veterans who write me and they say, ``I'm coming home. Can 
you help me find employment?'' I find myself writing back and 
saying, ``Well, what kind of job are you looking for and what 
kind of job do you think you would be qualified for?'' And I 
get back an answer that tells me they're really wrestling with 
it. They really don't know.
    So the irony of this is, could we be dealing with the 
homeless problem in a way that's less effective by focusing on 
housing, and could we be doing a better job of focusing in on 
helping them get jobs so they have income for a place and they 
have better self-esteem? That's what I'm wrestling with. And 
I'd like to start backwards and start with you, Mr. Wood, and 
then we'll go in the other direction.
    Mr. Wood. The issue that you raised, I think, has been 
raised in the broader context of the recipients of low-income 
housing assistance as to whether the fundamental problem is 
housing or income, and I don't know that it's ever been 
definitively decided one way or the other.
    You are correct. The veterans that we looked at were more 
likely to be homeowners and in fact, even if you look at low-
income veterans, the homeownership rate was about 68 percent, 
which is roughly the national average rate of homeownership for 
the population at large. So I don't really have a definitive 
answer to you other than to say that certainly the income angle 
has been brought up before.
    Mr. Shays. And before I get to our other two witnesses, 
I'll just add for emphasis, obviously we are dealing with post-
traumatic stress disorder, but I'll tell you this, if you're 
unemployed, if you are on the edge with post-traumatic stress 
disorder, being unemployed is just going to add to that.
    Mr. Dougherty. Mr. Shays, I think you're absolutely right. 
In 1994, Secretary Jesse Brown convened the first national 
summit on homelessness among veterans. After that summit ended, 
a group of experts got together, and the ultimate finding of 
that group of experts was that employment was the psychological 
barrier that made a veteran feel like they had worth--
    Mr. Shays. Unemployment.
    Mr. Dougherty. That having employment changed that 
position.
    Mr. Shays. Oh, I see.
    Mr. Dougherty. Unemployment is a very debilitating 
condition. The people who serve in the Nation's military are 
there, and particularly at this time, because they want to be 
there. They want to have a meaningful experience. They know 
what they do is important to our country and what they do is 
critical for the men and women they serve with.
    Not having a job when they come back is obviously very, 
very difficult for many of them to deal with. The ability to 
get employment is significant. Now as you've indicated, though, 
many of them have health-related problems, and what we're 
trying to do is trying to shorten that gap so that the veteran 
who may not have a job and has health problems stays out of 
coming in and getting assistance from us in whatever form.
    Because if I have severe combat-related PTSD, I'm not going 
to be a very good employee. I'm not going to be there. And if I 
get housing immediately, and I don't address the underlying 
healthcare issues, I'm not going to stay in that housing very 
long before I leave as well. So we comprehensively have to look 
at who that veteran is, what their needs are, and address them 
appropriately as quickly as possible.
    Mr. Shays. Thank you.
    Mr. Johnston. I certainly agree that employment is 
critical. When we look at our individual grant applications and 
applications from an overall community to get HUD homeless 
funding, we have two primary performance measures. One is 
housing stability, obviously. We want people to be able to move 
into housing and stay there. And the second is employment, 
because we recognize they may not be eligible for other 
benefits or, frankly, more importantly, they want to get to 
work.
    And so we encourage that, and we support and fund job 
training, because it is critical.
    Mr. Shays. Thank you. Thank you, Madam Chairwoman.
    Chairwoman Waters. Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chairwoman. Can any of you 
give me the requested amount for veterans in the Fiscal Year 
2008 budget request?
    Mr. Dougherty. How much was requested?
    Mr. Cleaver. Yes, sir.
    Mr. Dougherty. In the Department of Veterans Affairs 
budget, we provide most of the care through our healthcare 
system. We estimate about $1.6 billion for healthcare for 
homeless veterans. That's about $100 million more than the 
previous year, and $287 million in homeless-specific programs, 
which I believe was a $24 million increase from last year.
    Mr. Cleaver. What portion of it would go specifically for 
housing?
    Mr. Dougherty. Well, we provide about $87 million to 
transitional housing providers, the 300-plus grantees who are 
operating transitional housing. So in that sense, that would be 
probably the more specific number.
    Mr. Cleaver. But we don't have--I mean, we can't say, for 
example, that in the FY08 budget request, our goal is to 
provide housing for the homeless at a level of ``X?''
    Mr. Dougherty. I'm not sure what the ``X'' is in--
    Mr. Cleaver. Well, that's what I'm asking for. Why?
    Mr. Dougherty. We would expect that we would, with the 
coming year's budget, be able to provide transitional housing 
for 20,000 homeless veterans in the grant and per diem program 
as well as probably 6,000 to 7,000 homeless veterans in 
residential treatment programs operated specifically by the VA.
    Mr. Cleaver. Now the appropriators approved 7,500 vouchers 
last year. Did you support that, Mr. Johnston?
    Mr. Dougherty. I don't know that the Administration has 
taken a specific position on that appropriation. I have, in 
previous testimony before Congress, have been authorized to 
support additional vouchers for veterans underneath that 
program.
    Mr. Cleaver. Does that mean you're hoping that we can go 
higher than 7,500?
    Mr. Dougherty. I didn't say that, Mr.--
    Mr. Cleaver. Well, you kind of said it.
    Mr. Dougherty. What I said is that when I--
    Mr. Cleaver. I understand.
    Mr. Dougherty. Before the Appropriations Committee came 
forward with their Act, I had spoken before authorizing 
committees before and had supported, on behalf of the 
Administration, additional vouchers specifically for homeless 
veterans. I did not have any specific number per se that had 
previously been approved.
    I can tell you that we hold community meetings that 
assessed what the need for that kind of housing is, and the 
community tells us we need more than 20,000 of those units.
    Mr. Cleaver. So is it a stretch to assume that you and Mr. 
Johnston would support 20,000 vouchers? I'm not trying to start 
anything. I'm just trying to represent my constituents.
    Mr. Johnston. The $75 million for the 7,500 vouchers that 
was inserted into the conference report is a funding level that 
exceeds HUD's request. And--
    Mr. Cleaver. I know it exceeds HUD's request, which has 
been a problem we've had before, that HUD is not requesting 
more. And I'm not going to ask you whether or not you agree 
with the official request of HUD. Just like I'm not going to 
ask you any more whether or not you think we need 20,000 
vouchers. I think that would not be nice of me to try to put 
you in a position--
    Mr. Johnston. Thank you.
    Mr. Cleaver. --of discomfort. And so I'm not going to ask 
you that. I think I have an answer. But my final question is, 
as you know, the subprime and secondary market crisis is just 
wreaking havoc all across the country, which means that there 
is no exemption to veterans.
    Is there anything that you would suggest we do, or that Mr. 
Green could perhaps add to his legislation, that would help us 
to deal with the veterans who are going to wake up when their 
reset goes sky high and find that they are homeless?
    Mr. Dougherty. I'm not sure I can answer specifically about 
the subprime mortgage problem except that I do--
    Mr. Cleaver. Well, I mean, with regard to veterans.
    Mr. Dougherty. I just received information yesterday at the 
meeting that Mr. Johnston and I attended from one of our Deputy 
Under Secretaries, and on the VA side, the VA home loan 
guarantee side, I can tell you that the numbers are very, very 
positive. The numbers of veterans who have potential 
foreclosure is way under that subprime number and the number of 
veterans who are in foreclosure is at historic lows.
    The problem is that obviously many veterans may not have 
used the VA home loan guarantee program and may still end up in 
that way. So I guess the--
    Mr. Cleaver. That's the whole point. That some of them have 
dipped into the subprime market trying to get approval of their 
mortgage. Is there anything that Mr. Green can add to his 
legislation to address that issue?
    Mr. Dougherty. I'm not aware of anything. I'm not 
knowledgeable enough to answer that question
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. Mr. Garrett.
    Mr. Garrett. Thank you, Madam Chairwoman, and thank you 
gentlemen for being here today and also for the work your 
Departments do. I think one of the most critically important 
issues that any member works on is services for veterans, so I 
appreciate what you do.
    Just to recap, Mr. Johnston, an earlier question was, are 
there any specific proposals that are coming down or out of the 
Department without a yes or a no, I would hope that your 
answer, if not specific to that point, is--and you need to tell 
me if I'm wrong with the assumption. I should never assume. 
That there is just a continual review, and Mr. Dougherty the 
same thing, that there is just a continual review of the 
situation on the ground with veterans, with veterans groups, 
with the housing situation to analyze it today, tomorrow, next 
week in perpetuity as far as whether we should be doing 
something, whether you should be coming back to us with 
additional requests or changes in the existing programs.
    Mr. Johnston. That's accurate. I certainly agree with you. 
And let me cite something that relates to the future. Just like 
this good committee, the Senate counterpart as well as HUD have 
proposed to greatly simplify HUD's various homeless programs. 
In so doing, HUD has proposed not the same level of funding, 
but frankly, a large increase. If you look at the funding level 
that we had at HUD in 2001 versus 2008, it's an increase of 55 
percent.
    I think you'll agree there are very few programs in the 
Federal Government where you have that kind of an increase at 
this time. Just between 2007 and 2008, the request made, which 
is the exact amount that's in the conference report, would 
provide a lot of additional funds to better serve homeless 
persons, including homeless veterans.
    Mr. Garrett. I don't know if Mr. Dougherty wants to--
    Mr. Dougherty. You're absolutely correct. We look at this 
each and every year. We have continued to expand programs. 
We've targeted grant proposals to make sure that some 
historically underserved areas, tribal governments, and States 
and localities that have not had homeless-specific programs, 
are included.
    We've had a very consistent and significant increase both 
in the number of veterans that we're seeing and serving and we 
think that's working very well as our immediate past Secretary 
said, Secretary Nicholson, that when you're showing you're 
succeeding in doing this, that's not the time to lift off the 
accelerator. That's the time to go forward. And I think that's 
the mode that we're in, to do more.
    Mr. Garrett. Okay. And in one of those areas, specifically 
where we may be going forward, and someone asked this question 
in part on HUD-VASH--correct me if I'm wrong. That's the only 
dedicated voucher program aligned in that area. Is there 
anything that you're looking at as far as the--maybe you talk 
with the various housing agencies, local housing agencies and 
the like that can work with them to increase the actual 
utilization by them of those voucher programs?
    Mr. Dougherty. I think one of the things that we can tell 
you, because we monitor every veteran who is in that permanent 
housing with case management, the original HUD-VASH 
Administration initiative that began many years ago, about half 
of those vouchers that were originally started for that purpose 
have gone away. The other half that has really come back to 
almost max the original number were because local public 
housing authorities came to the Department of Veterans Affairs 
and said we have Section 8 vouchers. If you will provide 
specific case management to veterans, we'll give a preference 
for veterans to get into that housing.
    Mr. Garrett. Why did those other ones go away?
    Mr. Dougherty. Well--I'm not the expert.
    Mr. Johnston. As the tenant leaves the unit, that Section 8 
goes back to the PHA.
    Mr. Garrett. Okay. I see. Another interesting thing I 
learned, that's why I come here, I learned from your testimony 
today, Mr. Wood, as well as far as the--well the various 
positions, Mr. Shays addressed it in some part--the economic 
status of the veterans in general. It's sort of 
counterintuitive when you just come to these hearings, you 
don't hear that side of the equation. You think it's just a 
total negative, gloomy picture. And yet in fact if you can just 
reiterate some of them on the economic side, on the job 
employment side, and over homeownership rates, they're at the 
level, or in certain cases, above the level. So, first of all, 
correct me if I'm wrong on that. And secondly, if the problem 
then is--is the problem then with just a specific targeted 
group? And if so, and I guess part of your answer is already is 
you've tried to define or identify causation of that targeted 
group. You talked about post-traumatic stress. Economic, of 
course, is one, but there has to be an underlying cause of 
that. Another factor which you didn't raise, I just wonder is 
there a correlation between those individuals--we have a 
volunteer service at this point. Is there a correlation of the 
status of those individuals post being in the service and pre 
being in the service? In other words, we're encouraging people 
maybe in certain economic status and their economic status 
continues afterwards, or what variables do you consider may be 
the cause? And that's my last question.
    Chairwoman Waters. I'm sorry. We have a vote on, and I'm 
going to try and get Ms. Moore in with her questions before we 
have to leave and dismiss this panel. I would ask the gentleman 
to respond in writing to Mr. Garrett's question.
    Ms. Moore, would you like to try and get your questions in 
now?
    Ms. Moore. Thank you so much, Madam Chairwoman. I have so 
many questions, so I'm going to have to sort of squeeze all of 
them in a short period of time. The GOE data seemed to indicate 
that we are serving homeless veterans disproportionately less 
than we are other homeless populations. And I certainly do 
understand that we don't have enough vouchers to serve all of 
the homeless and we don't want to necessarily pit homeless 
veterans against homeless families or other homeless 
individuals. However, I am very curious about the planning 
process at HUD where you invite communities to identify--to use 
the challenge data and to identify homeless veterans and then 
make it optional for those communities to provide veterans 
preferences. So I am curious as to whether or not any of you 
think, number one, that we might want to revisit the veterans 
preference scenario for housing, given the numbers of troops 
that will inevitably come back in greater numbers because of 
the incursions in Afghanistan and Iraq and of the multiple 
deployments.
    Also, I know that there are 39 exclusions for income for 
veterans. So we talk--we've heard over and over again from 
members and from the panel that often veterans have a higher 
income. And so there's sort of a disconnect between why there 
are more homeless veterans if they have higher incomes. Have we 
ever considered that some of the recurring income that veterans 
receive, that portions of that ought to be excluded, too, 
particularly if there have been post-traumatic stress disorder 
diagnoses?
    The gentleman from the Veterans Affairs, if there were more 
assessments done. And thirdly, this flexibility that we give 
these housing authorities where they want to get substance 
abusers out of the house. You can't visit your mother who lives 
in public housing if you've been convicted of anything.
    Do you think that that particular predilection of local 
housing authorities, public housing authorities, do not want 
people with substance abuse histories in their housing, would 
militate against those communities really serving the needs of 
our veterans?
    Sorry I had to squeeze it all in like that, but go for it. 
I guess I want to start with Mr. Johnston.
    Mr. Johnston. Okay. In terms of the preference, for years, 
as you know, instead of having Federal preferences, which we 
had many years ago, they are local preferences. And I think the 
reason that Congress and HUD thought that was a good idea was 
that there are so many different characteristics when you go 
from city to city that it gives communities much more 
flexibility to target the needs of their particular community.
    We do recognize that veterans are a needy population, and 
this summer, Assistant Secretary Cabrera, who administers the 
Section 8 program, issued a letter to all of the executive 
directors of the public housing agencies urging them to 
consider establishing a local preference for veterans. So we'll 
be getting some information later, once they've had some time 
to think that through and consider implementing to see what 
effect that will have.
    Ms. Moore. If we saw, for example, like we see now, that 
there is a disproportionate number of homeless veterans, is 
that something we might want to do? Not offer that flexibility?
    Mr. Johnston. I can certainly bring that question back.
    Ms. Moore. Okay.
    Mr. Johnston. I don't administer the Section 8 program.
    Ms. Moore. All right. Go on. I would like to hear a little 
bit about the exclusions--I mean, if you think we ought to look 
at excluding, particularly when veterans are disabled, if their 
recurring income are disability payments, certainly I think 
others here on the panel have pointed out that you have higher 
needs, that there are more expenses related to being disabled. 
You can't just run out and mow your lawn if you're disabled. 
You have to pay somebody.
    Mr. Johnston. Right.
    Ms. Moore. You can't just jump in your car and go 
somewhere. You have to get a cab. And these expenses mount up. 
Should we exclude more of their income for disabilities? And 
then also I want somebody to address the housing flexibility 
issue as it relates to substance abuse.
    Mr. Johnston. Well, in terms of excluding the income, it's 
certainly a very good question, and let me take that back to 
Mr. Cabrera and--
    Ms. Moore. Okay.
    Mr. Johnston. --find out to what extent this is in the 
statute, to what extent it's worked, and what exclusions there 
are currently with income. That's a very good question.
    Chairwoman Waters. Thank you very much. The Chair notes 
that some members may have additional questions for this panel 
which they may wish to submit in writing. Without objection, 
the hearing record will remain open for 30 days for members to 
submit written questions to these witnesses, and to place their 
responses in the record.
    Before dismissing this panel, I would like to ask that you 
respond to Ms. Moore's questions that did not get addressed. 
Unfortunately, we have about 4\1/2\ minutes left to get to the 
Floor, and I'm going to dismiss this panel so that you won't 
sit here and wait, and we will convene the next panel when we 
return in about 30 minutes. So, thank you very much for coming 
today. This panel is now dismissed.
    [Recess]
    Chairwoman Waters. I'm very pleased to welcome our 
distinguished second panel. In particular, I would like to 
personally welcome to the panel Dwight Radcliff, chief 
executive officer of U.S. Vets, headquartered in my district, 
with whom I have worked closely and productively. I am pleased 
that today the other members of the subcommittee will benefit 
from Dwight's comprehensive knowledge and insights in this 
area, as I have for some time.
    So, we won't wait for other members, we'll just get 
started. The floor is quite busy. The committees are quite 
busy, and we will now have our panel: Mr. George Basher, chair, 
National Coalition for Homeless Veterans; Ms. Nan Roman, 
president, National Alliance to End Homelessness, whom we 
welcome back before the subcommittee; Ms. Karen M. Dale, 
executive vice president of operations and strategic 
development, Volunteers of America; Ms. Deborah DeSantis, 
president and CEO, Corporation for Supportive Housing; and Mr. 
Rick Weidman--I have a card here somewhere for Mr. Weidman. He 
is director of government affairs for Vietnam Veterans of 
America. And we had thought that Sharon Hodge would be 
presenting today, so we're very pleased that Mr. Weidman is 
able to be here.
    We will get started with the testimony, and I will start--
oh, and also, Mr. Ron Chamrin, assistant director, National 
Economic Commission, The American Legion, Washington, D.C.
    Mr. Basher, will you start off the testimony for us, 
please?

   STATEMENT OF GEORGE BASHER, CHAIR, NATIONAL COALITION FOR 
                       HOMELESS VETERANS

    Mr. Basher. Thank you, Madam Chairwoman. The National 
Coalition for Homeless Veterans appreciates the opportunity to 
testify before this committee. I'd to introduce myself. My name 
is George Basher, and I am chairman of the board of directors 
for the National Coalition for Homeless Vets. I also have the 
honor to serve as the chairman of the Veterans Affairs Advisory 
Committee for Homeless Vets, which you heard referred to 
earlier by Mr. Dougherty. And for the past 12 years, I had the 
pleasure to serve as the director of the New York State 
Division of Veterans Affairs.
    With respect to the National Coalition, NCHV was founded by 
a group of community-based homeless veteran service providers 
in 1990. It's a nonprofit organization. Our mission is ending 
homelessness among veterans by shaping public policy, promoting 
collaboration, and building the capacity of service providers. 
NCHV is the only national organization totally dedicated to 
helping end homelessness among America's veterans.
    The founders were all former members of the military, and 
they were concerned that neither the public nor policymakers 
understood either the unique reasons for homelessness among 
veterans or appreciated the reality that so many veterans were 
overlooked and underserved during their period of personal 
crisis. In the years since its founding, NCHV's membership has 
grown to over 280 organizations in 48 States and the District 
of Columbia and Guam. As a network, NCHV members provide the 
full continuum of care to homeless veterans and their families, 
including emergency shelter, food and clothing, recuperative 
and hospice care, addiction and mental health services, 
employment support, educational assistance, legal aid, and 
transitional and permanent housing.
    Now we heard testimony earlier from the previous panel 
about the degree of homelessness, and by anybody's measure and 
anybody's count, veterans today comprise roughly 20 to 25 
percent of the total homeless population, recognizing that 
veterans make up about 11 percent of the population in the 
country, and today's military is populated by less than 1 
percent of the population of this Nation.
    So, clearly, veterans are overrepresented in the homeless 
population. We've heard a variety of the possible reasons and 
probable reasons discussed, whether it be issues of mental 
health, whether it be issues of post-traumatic stress, or 
issues of unemployment or unemployability, all of those factors 
have combined to make this population particularly vulnerable 
to homelessness. And with respect to those who are at risk for 
homelessness, I would suggest to you that the percentages 
probably don't look too much different.
    So having said that, you asked us to comment on the various 
programs that VA and HUD have to offer for veterans. And with 
respect to the Department of Veterans Affairs, I think that 
they do a tremendous job of clinical care for veterans. The VA 
spends over a quarter-of-a-billion dollars directly to support 
homeless programs, and their healthcare for homeless vets 
program is clearly the best in the Nation and probably does as 
much for about 100,000 vets who are homeless ever year as any 
organization possibly can.
    The problem with all of this is that the VA has a focus on 
transitional housing, and so far to date, the only permanent 
housing program that VA has any involvement in is the HUD-VASH 
program, which we've heard, again, considerable testimony on. 
The success of this program, I don't think, can be underrated 
but the need to spread a program like this, I think, is 
something that needs to be attended to, and I believe, Mr. 
Green, you've done a very good job of attempting to make that 
happen.
    Other VA programs, whether it's the domiciliary program or 
their compensated work therapy program or any of the other 
healthcare outpatient programs that the VA directly provides 
services for, are more than supplanted by the programs that the 
community-based providers represented by NCHV bring to the 
table. These are typically small reparations during 
transitional housing, averaging 20 to 40 beds. These are not 
large operations, but, again, their focus is primarily 
transitional.
    When you get to the HUD side, as Mr. Johnston pointed out, 
we have the Shelter Plus Care program, which is HUD's most 
successful homeless program. While not specifically targeted 
for vets, it was designed to be modeled after the HUD-VASH 
program.
    One of the difficulties that we've had, and I can speak to 
this particularly in my role as State director in trying to 
connect people who are veterans with the various services that 
are available to them, is always trying to be able to make sure 
that those veterans who are in HUD programs are identified, 
screened for eligibility for potential compensation or pension 
benefits, and then had the wherewithal to find assistance to 
pursue those benefits. That has always been a difficulty for 
those of us involved in this effort, that linkage between VA 
services and whatever services HUD provided.
    The provision in both of those bills that we have a special 
assistant to link HUD and VA services, I think, is absolutely 
critical. There needs to be an understanding. Veterans access 
services just the same as every other citizen in this country, 
but the unique circumstances that made these veterans 
vulnerable can best be treated clinically by the VA, but some 
of those needs are better met by HUD when it comes to housing. 
So there has to be a way to make that crosswalk between the 
agencies and make sure that we don't have gaps and that we 
don't leave people out in the cold and unhoused.
    [The prepared statement of Mr. Basher can be found on page 
50 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Nan Roman, president, National Alliance to End 
Homelessness.

  STATEMENT OF NAN ROMAN, PRESIDENT, NATIONAL ALLIANCE TO END 
                          HOMELESSNESS

    Ms. Roman. Thank you so much, Chairwoman Waters, for your 
leadership on the housing needs of the most vulnerable people. 
The Homelessness Research Institute of the National Alliance to 
End Homelessness has just issued a report using 2005 and 2006 
VA, Census Bureau, and American Community Survey data to assess 
the housing situation of veterans. That report has been 
referenced here today.
    I can tell you that the report says that there are far too 
many homeless veterans. On any given night, one in four 
homeless people is a veteran. And in 2006, this meant that 
there were nearly 200,000 veterans homeless on a given night. 
Veterans also make up a disproportionate share of homeless 
people. They represent 26 percent of homeless people, but only 
11 percent of the adult civilian population. In addition, in 
2005, we estimated that at least 44,000 veterans were 
chronically homeless.
    Are there so many homeless veterans because veterans have 
more housing problems? We've learned that, no, generally 
speaking, veterans are doing very well with respect to housing. 
Only about half as many veteran renters have housing costs 
burdens as the general population, 4 percent versus 8 percent 
in the general population, and 80 percent of veterans are 
homeowners versus 69 percent of the general population.
    We did, however, find that there is a group of veterans who 
rent housing and who have severe housing cost burdens. In 2005, 
that was 468,000 veterans who were severely rent burdened. Of 
those veterans, 87 percent were extremely low income. The 
following characteristics were also overrepresented in this 
group: disability, female sex, living alone, and older. This 
goes to the question of why it is that some veterans do better 
than other veterans with respect to housing.
    So what does this mean? It means that most veterans are 
well housed. That's the good news. But around half-a-million 
are not, and this group tends to be poor, disabled, female, 
alone, and older. Further, 200,000 per night are homeless. 
Given the veterans' housing data and what we know more 
generally about homelessness, we can deduce that veterans with 
disabilities are very vulnerable to homelessness. Veterans, 
then, may be homeless not only because they lack affordable 
housing, but because the services to support them in housing 
are lacking. What can be done about that?
    Currently, the only housing assistance that's available to 
all veterans is for homeownership for higher-income people. 
There are some targeted VA homeless programs, but those fall 
far short of need. There are also general HHS and HUD homeless 
programs, again that don't meet the need. So, basically, unless 
a veteran has the money to be a homeowner or is homeless, 
there's nothing for them but to get in line with everybody else 
on the waiting list for public housing and Section 8. And we 
should be able to do better than that for veterans.
    We have several recommendations. One is to do a better job 
of helping people with housing before they leave the military. 
This is not so much to identify people who are going to be 
homeless as to catch people who are likely to have housing 
problems. Many people enter the military poor. They exit poor. 
And the people who are exiting poor, we could help with housing 
assistance.
    We could make sure that the VA has the resources to provide 
rapid re-housing and transitional housing to scale, so if they 
see housing problems, they have some ability to address that. 
Currently, they have very few resources or the ability to 
address housing problems.
    We can provide enough permanent supportive housing to 
address the needs of disabled veterans. A fast way to do that 
is through the HUD-VASH program. Other people are going to 
testify about the permanent supportive housing. We also support 
the Homes for Heroes Act and the Veterans Homelessness 
Prevention Act, assuming that there is money separately 
appropriated to support the housing vouchers in there, because 
we wouldn't want veterans to compete with other people for the 
same pool of vouchers.
    These measures will do the job, but they are a piecemeal 
approach. A more straightforward approach would be to give low-
income veterans a housing benefit, similar to Section 8, that 
they could use for renting or owning a home. Alternatively, 
such a benefit could be targeted to low-income, disabled 
veterans. I think that just providing a housing benefit to 
eligible veterans would be a less tortured way of getting to 
the same place.
    We've learned a lot about homeless veterans. We know that 
they do not become homeless immediately after discharge, but 
that difficulties may take years to emerge, although there's 
some evidence that period is shortening, and that the veterans 
from the current conflict are showing up earlier in the system. 
We know that post-traumatic stress disorder, traumatic brain 
injuries, and other factors of war make them vulnerable to 
increased poverty and to housing problems. And of course 
current veterans, we also know, have more of those problems. We 
know that housing and supportive housing are a solution to 
these problems.
    We have an opportunity before us, I think, to be bold about 
the solution to this. There's a lot of public will to help 
these returning veterans. We can prevent veterans from becoming 
homeless. We can house those veterans who are already homeless, 
and we can ensure that all veterans, including those with low 
incomes, have stable, decent, and affordable housing.
    Thank you so much.
    [The prepared statement of Ms. Roman can be found on page 
88 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. Roman.
    Ms. Karen M. Dale, executive vice president of operations 
and strategic development, Volunteers of America.

    STATEMENT OF KAREN M. DALE, EXECUTIVE VICE PRESIDENT OF 
  OPERATIONS AND STRATEGIC DEVELOPMENT, VOLUNTEERS OF AMERICA

    Ms. Dale. Good afternoon, Chairwoman Waters, and thank you 
for this opportunity to testify. Volunteers of America is a 
national nonprofit, faith-based organization dedicated to 
helping those in need rebuild their lives and reach their full 
potential. It is our firm belief that veterans deserve the 
highest investment of our resources to have them achieve their 
full potential.
    For 111 years, Volunteers of America has responded to 
community needs with compassion and consistency. In times of 
disaster, and in times of war, Volunteers of America has been 
there. When the United States entered both World War I and 
World War II, Volunteers of America focused its efforts on 
holding the homes, caring for children and housing for women, 
expanded and adapted services to support servicemen, as well as 
mothers engaged in defense work. So we have a long history of 
being very committed to our veterans.
    Fast forward to today. Volunteers of America worked in 
partnership with the Corporation for Supportive Housing, the 
National Coalition for Homeless Veterans, and convened a cross-
section of stakeholders to ensure that the dialogue remained 
alive and that we focused on how to deal with this emerging 
issue.
    The leadership dialogue resulted in the release of our 
joint report entitled, ``Ending Homelessness Among Veterans 
Through Permanent Supportive Housing.'' Volunteers of America 
also initiated a radio tour that reached out to millions to 
increase this dialogue and make the general public more aware. 
We also sounded an early alarm that the network of homeless 
services today is not prepared for the emergence of female 
veterans who by 2010 will account for 10 percent of all 
veterans.
    It's important that we understand the context for this 
dialogue when we talk about the types of services that are 
needed. It needs to be accessible. It needs to be a flexible 
array of comprehensive services, including mental health, 
substance abuse management and recovery, vocational and 
employment training, money management, case management, and 
life skills. All of these things in combination are what's 
needed, built on the cornerstone of housing, permanent housing, 
not moving from shelters to transitional housing, but rather 
ensuring that someone has a safe place to call home.
    We have substantial experience and a commitment to an array 
of services that we know work as solutions in meeting the needs 
of veterans. We have 32 grant and per diem programs with eight 
more in development. We have 13 homeless veterans reintegration 
programs, two HUD permanent supportive housing programs, 
service centers, a unique health mobile service center, 
transitional housing, grants for chronically mentally ill and 
frail elderly, and a program for incarcerated veterans.
    And I mention this full array of services to say that each 
veteran's needs are unique, and we can't just talk about one 
type of program. We need to ensure that we provide them 
permanent housing and then a full array of services based on 
their unique needs.
    We have a few recommendations that are based on our 
experience serving this population. First, we believe that the 
grant and per diem program needs to be fully funded, and that 
the funding should always be evaluated to match the scale of 
the need that we're expecting with the population to be served.
    Additionally, the per diem payment program should be 
revised to reflect current costs of providing needed housing 
and services, and looking at that in the context of both urban 
and rural issues, because we know that there are differences in 
trying to serve the veterans in both places.
    There are complex barriers that we experience in serving 
the veterans, and we believe it's important that all agencies 
work with the nonprofit providers who are delivering these 
services to ensure that there's flexible funding and ways that 
we work together to provide solutions.
    This year for the first time, Congress included funding for 
additional HUD-VASH vouchers in the amount of $75 million. And 
we want to reiterate our support for the recommendation that 
20,000 Section 8 vouchers for the HUD-VASH program be issued on 
an annual basis, making the program permanent. Again, we know 
that this is a solution that works. It simply needs to be taken 
to scale.
    Quickly, I want to illustrate for you a story that talks 
about how, in the voice of a veteran, our services have helped 
them. Walt, a veteran of the U.S. Army, had been living on the 
streets and homeless. He was unemployed, alcohol-dependent, 
without financial support, and suffering from PTSD. Walt says 
after living on the street, he was quite wary of what was going 
to happen at the Volunteers of America of Florida program. 
There, under a safe roof, he was provided with referrals and 
linkages, as staff encouraged him to take care of his medical 
and mental health treatment as he desperately needed to do. To 
this day, Walt remains alcohol-free, has graduated the 2-year 
program, and has his own apartment. Walt says the Volunteers of 
America of Florida program ``quite simply saved my life.''
    [The prepared statement of Ms. Dale can be found on page 68 
of the appendix.]
    Chairwoman Waters. Thank you very much.
    Now we will hear from Mr. Radcliff.

 STATEMENT OF DWIGHT RADCLIFF, CHIEF EXECUTIVE OFFICER, UNITED 
                   STATES VETERANS INITIATIVE

    Mr. Radcliff. Madam Chairwoman, and members of the 
subcommittee, thank you for allowing me to testify on a subject 
that I am very passionate about, and have dedicated my life to 
eradicating, and that is homelessness among America's veterans.
    The United States Veterans Initiative, also known as U.S. 
Vets, is a private nonprofit corporation established in 1992 to 
address the unmet needs of homeless veterans. Since its 
inaugural facility opened in 1993 in Inglewood, U.S. Vets has 
become a recognized leader in the field of service delivery to 
homeless veterans, the largest operator of homeless veteran 
programs in the country.
    The United States Veterans Initiative collaborates with 
various for-profit agencies, including Cantwell-Anderson and 
Century Housing for many of its projects developments. Last 
night, more than 2,100 formerly homeless veterans slept in our 
12 facilities across the Nation. They're receiving a variety of 
services according to their needs, whether it be educational, 
counseling for benefits, mental health issues, addictions 
treatment, employment assistance, or rental assistance for 
those veterans who are disabled.
    We're helping them to regain the skills that will make them 
self-sufficient and will give them the sense of pride that goes 
along with a productive life. Since 1993, we expanded our 
operations to include: U.S. Vets Los Angeles, a 485-bed 
facility for homeless veterans; U.S. Vets Long Beach Villages 
at Cabrio, a 26-acre base closure project, the largest 
transitional housing facility for homeless veterans in the 
country; U.S. Vets Las Vegas, a 260-bed facility; U.S. Vets 
Texas, which operates 100-bed permanent housing facility and 
employment center at the DeGeorge Hotel, and a 300-bed housing 
complex component at Midtown Days Inn in Houston; U.S. Vets 
Arizona, which has an 80-bed facility in Phoenix, and a 58-bed 
facility in Prescott; U.S. Vets Hawaii, a 210-bed facility in 
Honolulu; U.S. Vets Washington, D.C., a 51-bed facility here at 
the Old Soldier's Home, at the Armed Forces Retirement Home; 
and U.S. Vets Riverside, Compton. As a result of our successful 
strategies to educate, counsel, and empower homeless veterans, 
the State of Hawaii recruited U.S. Vets to provide services to 
a family program, 300-bed family program, a brand new family 
shelter in Hawaii.
    I do want to comment that 65 percent of the veterans we 
have served have made successful transitions, and we've served 
more than 17,000 veterans since 1993. Eleven hundred veterans 
get employment every year in our facilities, and we continue to 
maintain an 80 percent placement rate in employment.
    I want to talk about the need and the scale of need. The 
Homeless Research Institute released a report citing that 
numerous findings, the findings highlighted the need to provide 
veterans with proper housing and supportive services in order 
to prevent homelessness from occurring in the first place.
    I commend Nan and the group that sits here today for their 
services. The report also calculates to reduce chronic 
homelessness among veterans by half, permanent supportive 
housing needs to be increased by 25,000 units, and the number 
of housing vouchers targeted to veterans needs to be expanded 
to 20,000 units. Fannie Mae also released a Gallup Poll that 
found 24 percent of veterans have indicated that they have been 
concerned that they may not have a place to live.
    The recent congressional hearing on foreclosure prevention 
and intervention held by this House subcommittee cited that 
148,147 foreclosure filings in California, the proliferation of 
subprime interest-only adjustable rates, and other mortgage 
products have locked low-income individuals, including 
veterans, into unsustainable loans. Veterans represent a 
substantial number of the current foreclosure crisis.
    And according to the National Low Income Housing Coalition, 
nationwide there are 6.2 million homes renting at prices 
affordable to the 9 million extremely low-income individuals, 
families and veterans. This indicates a shortage of 2.8 million 
units of housing throughout the country. Additionally, no 
congressional district has enough housing available to the 
extremely low income.
    I want to go on and just talk about the cost of doing 
nothing, because homeless individuals who have no regular place 
to stay use a variety of public systems in a very inefficient 
and costly way. Preventing a homeless episode or ensuring a 
speedy transition into stable permanent housing can result in 
significant cost savings.
    People who are homeless are more likely to access 
healthcare services, and according to a report in the New 
England Journal of Medicine, homeless people spend more than 
the average of 4 days longer per hospital visit than comparable 
non-homeless individuals. The cost is approximately $2,400 per 
hospitalization.
    Homelessness both causes and results from serious health 
issues, including addictive disorders and treating homeless 
people for drug--
    Chairwoman Waters. Sorry.
    Mr. Radcliff. That's okay.
    Chairwoman Waters. You are way over your 5 minutes.
    Mr. Radcliff. Thank you.
    Chairwoman Waters. I would like to move on to Ms. DeSantis.

 STATEMENT OF DEBORAH DeSANTIS, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, CORPORATION FOR SUPPORTIVE HOUSING

    Ms. DeSantis. Thank you, Madam Chairwoman, and members of 
the subcommittee. My name is Deborah DeSantis, and I am 
president and CEO of the Corporation for Supportive Housing. 
Thank you. We are grateful the committee is focusing on the 
housing needs of veterans and want to first thank 
Representative Green for introducing the Homes for Heroes Act 
and the Veterans Homelessness Prevention Act, which we support.
    Today I want to share with you what we know about homeless 
veterans and how permanent supportive housing addresses their 
needs. CSH has unique experience as a national organization 
that for the last 17 years has helped communities build 
permanent supportive housing to prevent and end homelessness, 
with particular success in serving people struggling with 
multiple challenges. Many homeless veterans who so often 
wrestle with substance use, mental health, and co-occurring 
disorders clearly fall into this group.
    Many of the observations and recommendations in my 
testimony today are informed by the lessons learned during a 
leadership dialogue which CSH convened to discuss the Federal 
policy landscape for homeless veterans.
    First, our observations. Without a permanent place to live 
and support system to help them address their underlying 
problems, most homeless veterans bounce from one emergency care 
system to the next, from streets to shelters to public and VA 
hospitals, to psychiatric institutions and detox centers and 
back to the streets endlessly.
    Unfortunately, too many veterans exiting VA transitional 
programs experience this cycling because of the lack of 
permanent housing. While this is a national tragedy, our 
organization believes chronic homelessness can be prevented and 
ended through the creation of supportive housing. Supportive 
housing, as we know, has proven an effective and cost-efficient 
innovation that integrates permanent housing with high quality 
support services. Studies of supportive housing indicate that 
80 percent of individuals who enter stay housed. Use of detox, 
emergency rooms, and hospital rooms lessen, and we see an 
increase in earned income by 50 percent and employment by 40 
percent.
    Some important considerations for designing services 
strategies within permanent supportive housing projects for 
homeless veterans include the following:
    It's important to understand the impact of veterans' 
military service and designing service programming that 
respects values and is responsive to the impact of those life 
experiences, including a strong emphasis on peer-to-peer 
support models.
    Understanding the prevalence of specific mental illnesses, 
such as post-traumatic stress disorder and rates of anti-social 
personality disorder, which has been found to 5 to 6 times 
higher among veterans than non-veterans.
    Facilitating access to veteran-specific public benefits. 
Many veterans, especially those who did not serve during 
wartime, are not aware of, or have not accessed, VA pension or 
healthcare benefits. In addition, the wars in Iraq and 
Afghanistan highly utilize our National Guard soldiers, who may 
not be as geographically concentrated near existing veteran 
services facilities as active duty components.
    Our recommendations. Given what we know about the needs of 
homeless veterans and the success of permanent supportive 
housing, CHS offers the following recommendations:
    First, support the creation of additional permanent 
supportive housing. While I know it's not the focus of today's 
hearing, I would be remiss not to mention the McKinney-Vento 
Homelessness Assistance program and our support of the 30 
percent set-aside as we see a benefit to homeless veterans.
    Second, to support the funding for additional HUD-VASH 
vouchers, which has been referred to today. We see that as one 
of the most effective tools for addressing this population.
    And third, to provide funding on a grant, not per diem, 
basis. It was the consensus of the participants in our 
leadership dialogue that it's not optimal to fund the services 
in permanent supportive housing on a per diem basis. The 
recommendation is based on the difficulties veteran service 
providers face in underwriting day-to-day operating costs. We 
believe that by providing funding on a grant basis, veterans 
housing and service providers would have greater security in 
providing quality care.
    I thank you, Madam Chairwoman, for this opportunity to 
testify today.
    [The prepared statement of Ms. DeSantis can be found on 
page 76 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Rick Weidman, director of government affairs, Vietnam 
Veterans of America.

  STATEMENT OF RICK WEIDMAN, DIRECTOR OF GOVERNMENT AFFAIRS, 
                  VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Madam Chairwoman, thank you very much for the 
opportunity for VVA to add its voice to the support for Mr. 
Green's legislation. I particularly want to commend Section 6, 
which would exempt pension and death and indemnity compensation 
for figuring income for going into public housing. It is 
something that has been needed for many years, and this would 
be an extraordinary step.
    Is there a need for more permanent low-income housing? The 
answer is yes. It has a tremendous impact on the ability to 
help veterans recover and make it back from the street. Let me 
just say that Vietnam Veterans of America, two things. One is 
that our founding principle is never again shall one generation 
of American veterans abandon another generation. And while we 
are focused on the needs of the young men and women coming 
home, we are also not going to abandon our own generation or 
those older than us who continue to have problems that have led 
them to the state of homelessness.
    There is no such thing as a homeless vet. There are only 
veterans whose problems have reached such a crisis proportion 
that they have ended up on the street. And basically, each and 
every one of them is a failure of the VA, and I might add, the 
Veterans Employment and Training Service, and of the Department 
of Labor. Employment is a key in a lot of this, and the 
supportive services that will enable people not only to get but 
to keep jobs.
    Workforce Investment Act predecessor, JTPA, in 1990, 
program year 1995, we looked up how many homeless veterans they 
served, and it was 260 nationwide out of all of the billions of 
dollars. In program year 2005, they've increased that to 400 
veterans nationwide. And then we wonder why we can't help 
veterans get jobs. The reason is that the monies that have been 
allocated by the Congress to the Department of Labor don't get 
where they're supposed to go. We still are waiting for regs for 
the Jobs for Veterans Act which was enacted in 2002 that would 
accord veterans priority of service at all federally funded 
employment and training programs. That is the one piece that is 
missing from the continuum of services that you've heard so 
much about today.
    Let me also mention that 20,000 is probably, for VASH-HUD 
certificates, are probably--is a low number. But we need to get 
to where it is in order for us not to be spending services--
precious resources on services for folks who have no permanent 
place to live. So that everything that is happening during the 
day comes unraveled at the shelter that night that does not 
have a clean, sober, dry and supportive services atmosphere to 
it.
    And part of that mix out, once again, the key is 
employment. Because it is the flashpoint of the readjustment 
process which Vietnam Veterans of America has held for 29 
years, is the ability to obtain and sustain meaningful 
employment at a decent living wage. In order to do that, you 
need a permanent domicile and way for employers when you leave 
a resume to get back to you. So the permanent domicile is in 
fact the crux of it.
    I would just remind the committee for the record that many 
of the housing programs that are on the books today started 
post-World War II. And initially, they were designed primarily 
for veterans. That is true not only at the Federal level, but 
in many of the State-funded programs, as well. And over the 
years, veterans have been pushed from the center to the edge, 
and in many cases the epicenter, if you will, where it's even 
harder for veterans to get in because they believe that the VA 
does all things for all veterans, and that is simply not the 
case.
    So the role of this committee in terms of breaking the 
chain of failure is absolutely essential. Once again, I want to 
commend the committee for addressing this. Chairwoman Waters, 
there are some people who are players who walk onto the field 
and by their very presence change the nature of the game. You 
did that 15 years ago in the House Veterans Affairs Committee, 
and you are doing it on this committee, and Vietnam Veterans of 
America salute you and commend you for your ongoing superior 
performance. It is prime time performance.
    Chairwoman Waters. Thank you so very much.
    Mr. Ron Chamrin.

   RONALD F. CHAMRIN, ASSISTANT DIRECTOR, NATIONAL ECONOMIC 
                COMMISSION, THE AMERICAN LEGION

    Mr. Chamrin. Madam Chairwoman, and members of the 
subcommittee, I want to thank you for the opportunity to 
present the American Legion's view on the housing needs of low-
income veterans. The American Legion commends the subcommittee 
for addressing this important issue.
    My name is Ron Chamrin, and I am OIF veteran. Not unlike 
many of my other brethren, I was in my mid-twenties during my 
year-long combat deployment. When I came back from war, I lived 
in housing that severely rent-burdened me financially. And due 
to the GI Bill not paying anywhere close to the cost of 
college, I found myself in $50,000 debt to student loans.
    Since 2001, approximately 300,000 service members are 
entering the private sector each year. This large influx of 
veterans, some of whom have high-risk factors of becoming 
homeless, is unnerving. There are numerous estimates that there 
are nearly 200,000 veterans who are currently homeless at any 
point in time. The American Legion believes that one homeless 
veteran is one too many.
    The mistake of incorrectly failing to recognize the 
increase in homelessness amongst Vietnam veterans in the late 
1970's and early 1980's cannot be made again. According to the 
Urban Institute report in relation to the 1980 spike in 
homelessness, some observers felt that the problem was a 
temporary consequence of the recession of 1981 and 1982 and 
would go away when the economy recovered. But here we are, 30 
years later, debating whether assistance and prevention of 
homeless veterans is a part of the cost of war. I hope that our 
country does not make the same mistakes as we did to our 
Vietnam veterans.
    Combat veterans of OEF-OIF and the global war on terrorism 
are at high risk of becoming homeless, and some who are in need 
of assistance are already beginning to trickle into our 
Nation's community-based veteran service providers. In order to 
prevent a national epidemic of homeless veterans in the 
upcoming years, measures must be taken to assist those veterans 
who are currently homeless. Steps must also be taken to prevent 
future homelessness of veterans and their families.
    The American Legion supports additional and mandatory 
funding of the HUD-VASH program. A decade ago, there were 
approximately 2,000 vouchers earmarked for veterans in need of 
permanent housing. Today, less than half that amount is 
available for distribution. At a time when the number of 
homeless veterans on any given night is approximately 200,000, 
the need for safe, affordable, and permanent housing is 
imperative.
    The HUD appropriations bill would provide $75 million for 
new vouchers for the HUD-VASH program. Funding, if enacted, 
should be sufficient to provide assistance for thousands of 
vouchers, affecting approximately upwards of 15,000 homeless 
veterans. The American Legion supports Congress's efforts to 
assist homeless veterans, and passage of these appropriations 
will greatly assist veterans. We would be greatly disappointed 
if these appropriations are not enacted into law.
    I'll speak briefly on one piece of legislation discussed 
today, H.R. 4161, the Veterans Homelessness Prevention Act. The 
American Legion supports this bill. H.R. 4161 would authorize 
the Secretary of HUD, in coordination with the Secretary of the 
VA, to carry out a pilot program to prevent at-risk veterans 
and veteran families from falling into homelessness. In 
addition, the American Legion supports initiatives that will 
give preference to America's veterans and their families in 
obtaining housing through the programs of HUD.
    I'd like to discuss the National Alliance to End 
Homelessness report. The American Legion concurs with the three 
major recommendations put forth in the report: Establish a 
risk-assessment process during the first 30 days of discharge 
and pilot a homelessness prevention program. Create permanent 
supportive housing options for veterans, and expand rental 
assistance for veterans.
    The report states that currently over 930,000 veterans pay 
more than 50 percent of their income toward housing, be it 
renting or owning a home. The 2006 American Community Survey 
conducted by the U.S. Census Bureau reports that the median 
monthly housing cost for all mortgage owners was $1,402. This 
is important, because the American Legion is very concerned 
with the ever-growing gap of housing expenses versus veterans' 
income. The 2006 survey further states that the median gross 
income for veterans in the past 12 months is $34,000. Some 
quick math shows a gross income of veterans of only $2,800 a 
month. If a veteran were to safely only use 36 percent of an 
average monthly income, this would only allow them to pay 
$1,000 a month. However, this is $400 less than national median 
monthly mortgage costs for all Americans. Put simply, the 
average veteran cannot afford new housing within safe financial 
practices in today's housing market.
    In conclusion, we are at a critical period in our Nation 
and the treatment of veterans. Funding the HUD-VASH program 
will greatly assist veterans. With 300,000 servicemembers 
entering the private sector each year, the availability of 
transitional housing must be increased. Veterans of all eras 
must be supported. Affordable housing, transition assistance, 
education, and employment are each a pillar of financial 
stability. They will prevent homelessness, afford veterans the 
ability to compete in the private sector, and allow this 
Nation's veterans to contribute their military skills and 
education to the civilian sector.
    The American Legion looks forward to continue working with 
the subcommittee to assist our Nation's homeless veterans and 
to prevent future homelessness. Madam Chairwoman, and members 
of the subcommittee, thank you for this opportunity.
    This concludes my testimony. I'd be happy to answer any 
question that you may have and provide comments on statements 
made earlier.
    [The prepared statement of Mr. Chamrin can be found on page 
57 of the appendix.]
    Chairwoman Waters. Thank you very much. I'd like to thank 
this panel for the very, very informative testimony that you 
have shared with us today. We will now move to raising a few 
questions that can perhaps further instruct us as we give 
support to this important legislation that's being presented by 
our colleague, Mr. Green.
    Let me just say, Mr. Weidman, your comments took me back to 
Sonny Montgomery when I served on the Veterans Affairs 
Committee. I don't think Mr. Montgomery ever got ready for me, 
but I think he learned a lot. He learned a lot during those 
days.
    Having said that, I don't know if I'm absolutely correct, 
but it seems that the Vietnam-era veterans were the veterans 
who have paid a terrific price and a lot of sacrifices and 
helped to teach the public policymakers about what had to be 
done for our returning veterans. It seems to me that 
homelessness, healthcare issues, all of these issues were 
brought to us in a real way by the Vietnam-era veterans, and 
you have been in the leadership of getting public policymakers 
focused on what we could do.
    Having said that, as we look at homelessness now, I don't 
have all of the data, and I heard some of the information given 
to us. I don't know what percentage of Vietnam-era veterans is 
still out there, and whether or not they are disproportionate 
to the overall numbers of veterans that are out there.
    If it is true, as I seem to think it may be, that we have 
Vietnam-era veterans who have been on the street for all of 
these years, does that not make a case for us really looking at 
what we could do about permanent housing? And if so, let me 
start by asking Ms. Roman, I think you mentioned, what kind of 
models should we be looking at for permanent housing for the 
homeless veterans?
    Ms. Roman. Well, for homeless veterans with disabilities, 
clearly permanent supportive housing is the proven solution, 
and we should be going to scale there. There obviously are 
veterans who don't have such serious disabilities. One of the 
things that I thought was interesting in our veterans report 
was that with respect to renters with housing cost burdens, the 
people who had the highest rate of risk were actually older 
veterans. The Korean War and World War II veterans had a higher 
rate of rental cost burden than younger veterans, which was a 
little counterintuitive for us. We would have thought that the 
older veterans would have more protection. But the Vietnam 
veterans were by far the biggest group of people with rental 
costs burdens, and they probably are the largest homelessness 
group as well.
    I think a lot of people just need some housing subsidy. 
It's an affordability issue. So of the 500,000 who are rent-
burdened, there's probably a significant number who just need 
rent assistance, and then people who are disabled probably need 
supportive housing with services attached to it. Not to say 
that people who need subsidy don't also need services, but it 
doesn't necessarily need to be linked to the housing.
    Chairwoman Waters. Ms. DeSantis, would you continue that 
discussion about the models of permanent supportive housing and 
what seems to work best for veterans? I'm focused a little bit 
on the recent information that we have gotten about the Iraqi 
veterans. We just learned that there are 20,000 more brain-
injured Iraqi veterans than we had been told about. So if we 
are looking at supportive housing, and we're looking at 
disabilities and understanding them better, could you talk a 
little bit about the kind of models we too should be looking 
at?
    Ms. DeSantis. Yes. First let me say I agree with Nan that 
we certainly do need more affordable housing. The one thing to 
remember about permanent supportive housing is that it's not 
one type fits all. And so as you say, Chairwoman Waters, it's 
important to note the special needs of the individuals that 
we're looking to house.
    So some of the supportive housing that we might look to 
develop for this population, I think it's important to remember 
that it's not always the most effective to create housing 
that's--created it in a way that it's 100 percent serving only 
veterans, because certainly there is a percentage of this 
population that can and should be integrated into the larger 
community.
    I would also add to that, that while there are VA services 
to be accessed, what we do see is that many of the veterans 
don't know what those services are, where those services are 
available to them, how to access them, and they're remote from 
their geographic location. So I think it's important that when 
we consider developing permanent supportive housing for this 
population, we also think about how those services should be 
identified in the communities that these individuals are going 
to be living.
    I also want to note that we would ask consideration to have 
the clean and sober rule for VA surplus properties removed. 
Certainly a percentage of this population is experiencing 
substance use issues and alcohol abuse. Having that rule 
applied to the VA surplus properties makes it very difficult to 
utilize treatments that address their substance issues in a way 
that's going to, I think, solve some of their issues. And also 
knowing that the VA surplus properties are the most readily 
available properties to turn into supportive housing, I think 
that's also an important consideration.
    Chairwoman Waters. Thank you very much. And lastly, Mr. 
Radcliff, I'd like to know how the two Iraqi veterans who 
received some attention in our area, young men who came back 
from Iraq, they were homeless, you took them in over at U.S. 
Vet. I'd like to know how they are doing. And I'd like you, 
because you've been involved with transitional housing for the 
most part, how would you transition into more permanent 
supportive housing given you've been focused on helping to 
transition people and get them back into the workforce. You 
have supportive services, but the housing part of it is not 
permanent.
    Mr. Radcliff. That's correct. Well, although we happen to 
have rental housing onsite that allows for veterans to stay for 
an unlimited time and access some of the groups and services 
and meals that are there, we do not have a ``permanent 
housing''--under HUD's definition--model.
    We've seen struggles. The two veterans, Jason and Ryan, who 
were recently seen on CNN, are recently separated veterans who 
are homeless and showed up at our facilities. They are doing 
well. They are adjusting. They are attending PTSD groups. One 
of the things that's difficult for them to do is to have time 
to decompress. I think coming back from fighting a war and then 
going right into the workforce is a key issue for them. So 
there's no--we've kind of given them the opportunity in our 
transitional housing to really decompress and focus on career 
and education goals.
    I want to thank the Congressman for authoring the Homeless 
for Hero Act. We agree with Nan's premonition that we should 
get housing vouchers to the veterans. Because oftentimes, even 
if we're successful in getting these veterans employment, then 
they're not eligible. And we have veterans who make $11 an 
hour, newly employed, coming back from Iraq, who are not 
eligible under HUD, and tax credit housing. They make too much 
money, so they are income ineligible. That is probably the most 
fragile population that the community has made an investment in 
that would benefit from some additional services while in 
permanent housing.
    Chairwoman Waters. Thank you very much. Yes, Mr. Weidman?
    Mr. Weidman. If I may add to that, prior to the late 
1980's--actually, it was in the 1990's--there was no VA, VASH-
HUD certificate. And there was a feeling on the part of some, 
that's not our job. I'm talking about of the Veterans Affairs 
Committee and at the VA.
    Today, one thing that has changed since Vietnam, is when we 
came home from Vietnam, and you were in the VA hospital 
recuperating from physical wounds, you were in the VA hospital. 
But that is no longer true today. The overwhelming majority of 
the services are delivered outpatient. So what's happening is 
the young people who move from Walter Reed or Bethesda or one 
of the other 35 military hospitals around the country, are 
discharged from the military and they're told to go and seek 
services when they go back to the VA, they have no way to get 
back and forth.
    And everything is predicated on a nuclear, intact family 
with a spouse who does not have to work and so can ferry that 
injured veteran back and forth to multiple appointments for 
ongoing, long-term chronic care treatment. That just simply 
doesn't hold. And while we have brought this to the attention 
of the previous Secretary, who is now gone, and we had brought 
this to the attention repeatedly of the Under Secretary for 
Health, nobody is moving to address a new paradigm. And just as 
the forward-thinking folks like yourself, Madam Chairwoman, in 
a different committee led to creation of the VA-HUD 
certificates where VA got into the housing business because it 
was needed in order to have transitional housing to be able to 
treat people.
    So, moving into the permanent housing business helps get 
construction of permanent housing that is nearby, or in some 
cases on excess land of VA hospitals around the country, is 
something that we would urge you to consider in the future. 
Because there are going to be people who are going to need 
years of treatment, and they're not going to be able to stay at 
Palo Alto. They're going to go, as an example, back to Los 
Angeles. But how are they going to get back and forth, given 
the fact that many of them can't drive, to medical treatments 
at the various VA hospitals in the Los Angeles basin?
    And we would suggest that it's time for a paradigm and 
would encourage you to work with Chairman Filner and others on 
that committee to develop that new paradigm about how are you 
going to provide for that ongoing treatment for these severely 
wounded veterans who are discharged from the military and sent 
back to the VA.
    Chairwoman Waters. Well, thank you very, very much. My 
members have been very patient with the time that I've taken, 
and with that, I'm going to go back to Mr. Green, the author of 
the legislation before us today, for his questions.
    Mr. Green. Thank you very much, Madam Chairwoman. And Mr. 
Weidman, am I pronouncing it correctly?
    Mr. Weidman. ``Weidman,'' sir.
    Mr. Green. ``Weidman.'' Mr. Weidman, I wanted to say to you 
that you are eminently correct when you indicate that the Chair 
is an impact player. She really is. And not only is she an 
impact player, she walks softly but she carries a huge, 
persuasive cudgel. That's a country boy's way of saying club.
    [Laughter]
    Mr. Green. And she ain't afraid to use it. And I say 
``ain't'' for emphasis, for the kids who may be watching. But, 
really, it is a blessing to have this wonderful lady as the 
chair of this committee, because she has the courage to take on 
some of these issues. And believe me, it takes some courage, 
notwithstanding what people are saying, we still have great 
work to do to get this done.
    And I have to say to myself, someone is going to say 
something is wrong with us if we can spend $14 million an hour 
on the war, $14 million an hour, and won't spend $12.5 million 
a year for a pilot program, somebody has to say, something's 
wrong with you. It really is time for us to take action, 
immediate action to do something about this problem.
    Your testimony, friends, has convinced me that this problem 
merits our immediate attention. I am so grateful that you took 
the time to come and share with us.
    Sir, you indicated to us that 20,000 vouchers is a low 
number. Does everyone agree? If you agree that 20,000 is a low 
number, raise your hand, please.
    [Show of hands]
    Mr. Green. Okay. And let the record reflect that all 
persons raised their hands. Twenty thousand is a low number. 
So, we have not decided to bankrupt the country to do this for 
20,000 vouchers, $25 million over 2 years, given what we are 
spending. We can do this.
    One more question. You said also, sir, that the money is 
not going where it's supposed to go. I don't want to put 
anybody on the spot, but I do have to ask this question. If you 
agree that the money's not going where it's supposed to go, 
would you raise your hand, please.
    [Show of hands]
    Mr. Green. Okay. Leave your hands up a little longer there. 
Okay, now, if you did not raise your hand then, raise your hand 
now.
    [Laughter]
    Mr. Green. Let the record reflect that every person on this 
panel has indicated that the money is not going where it's 
supposed to go. Now that's our challenge. We have a challenge 
of getting the money where it's supposed to go, and we have to 
make sure that the money benefits the people that it's supposed 
to benefit when it gets there.
    One more question dealing with employment. Everybody seems 
to see this as the gravamen, if you will, of the problem; 
employment. Do we need to have some sort of program, if it 
doesn't exist now, that specifically deals in a much more 
pervasive way, in a much broader fashion, with the employment 
issue presented when a person goes into the military, and maybe 
he's in artillery, and he comes out of the military, and he 
can't find a job in artillery? He has served his country well, 
and we are honored that he did. But there ought to be some 
means by which persons can make that transition in an orderly, 
systematic fashion. Tell me, do we have a program in place now 
that is pervasive enough to deal with the unemployment issues? 
If you think so, if you think not, would you kindly raise your 
hand?
    [Show of hands]
    Mr. Green. Okay. Lower your hands. You may lower your 
hands. You really want to vote on this one I see. Now if you 
did not raise your hand then, raise your hand now. Let the 
record reflect that all members of the panel raised their 
hands.
    You talked about a new paradigm, and my time is almost up. 
Would you be willing to visit with, any number of you, with my 
staff members? Oscar Ramirez is here. He's my legislative 
director. I really am now moved to try to go beyond what we're 
trying to do. I think this is needed now. You have caused me to 
have a broader vision of where we need to go, but I'm not sure 
that I understand all of the pieces of the puzzle, and I would 
dearly appreciate it if some of you would be willing to work 
with Mr. Ramirez so that we can look at this new paradigm. 
Veterans ought not to have to sleep in the streets of life in 
the richest country in the world.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. You're so welcome. Mr. Cleaver?
    Mr. Cleaver. Madam Chairwoman, thank you. Since all of the 
members of this panel agree with my colleague, Mr. Green, I 
don't have a lot to say or ask.
    I would wonder if any of you has some statistics. Our 
colleague, Charles Rangel of New York, has introduced a bill 
more for impact than for an attempt to pass it. It is a bill to 
restore the draft. He did so because it is his belief, and I 
must add the belief of probably hundreds of thousands, if not 
millions of other Americans, that if you demographically look 
at the soldiers in Iraq, that they are low-income people. 
Therefore, that--I mean, if you can take this further, we go to 
war easily when we have low-income people out in the trenches. 
But I'm not even going there.
    Where I want to go is, do any of you have any information 
about the demographics? Because if in fact Charlie Rangel is 
accurate, it means that the people who are coming home are not 
just veterans with problems, physical and mental, they are 
veterans who are poor with mental and physical problems. And so 
it seems to me that we might need to design--not only Mr. 
Green's legislation. This problem is herculean, I think, and we 
may not be looking at it holistically. So in any of the work 
you've done, do you have any demographics that you could share. 
Ms. Roman, please.
    Ms. Roman. We did see that among the people with housing 
cost burdens, 87 percent were extremely low income. And that's 
why we suggested that part of the problem really is just 
poverty, and people can't be expected to get meaningful 
employment if they live in a shelter. One thing to consider in 
terms of going to scale really is some kind of housing benefit 
for veterans across the board, low-income veterans or disabled 
low-income veterans, to just address this economic piece. The 
question of people with disabilities who need supportive 
housing is different. You know, affordability is an issue 
there, too, but in that case, sources linked to the housing are 
also needed.
    But, clearly, you're correct that poverty is causing a lot 
of these problems with respect to housing.
    Mr. Cleaver. Yes?
    Mr. Weidman. If I may suggest, Mr. Cleaver, we know a 
number of things about the people who are serving today in OIF 
and OEF. One of those things is that 60 percent of them come 
from towns of 25,000 or less. In other words, it's the most 
rural army we've fielded since prior to World War I, probably 
since the Spanish-American War, because--and the reason for 
that is economic.
    In a lot of areas, in rural areas, in small towns, there 
aren't a lot of options for employment. So what do people do? 
To supplement their income, they have joined the National Guard 
and the Reserves, and it's an economic thing. Therefore, they 
get activated, and if they're a young person, there is no place 
in many parts of the country, there's no employment available 
in that part of Texas or that part of Iowa or whatever State, 
and therefore they join the military.
    And when they come out on the other end, the--employment in 
fact is the key, and there is no--the means available through 
the Workforce Investment Act, if we had a Secretary of Labor 
who would address it with discretionary funds, but there isn't 
any Secretary of Labor that does address it with those billions 
in discretionary funds. So there is a means there, but there 
isn't the will to do it.
    I would just add that some tools that are available for 
employment and for not going back to the economic circumstances 
that caused one to enlist either in the Guard and Reserve or in 
active duty in the first place, one of them is, thanks to Mr. 
Rangel's leadership on Ways and Means, we now have the Worker 
Opportunity Tax Credit for any disabled veteran of any age that 
is $6,000 back to the employer of the first $12,000 paid. But 
nobody knows it. Nobody knows it. The American Legion, VVA, and 
VFW have done more to publicize this to employers working with 
the United States Chamber than the Department of Labor has.
    So, in addition to needing more tools, we need the 
political will to care about folks once they leave military 
service.
    Mr. Cleaver. Yes.
    Mr. Weidman. And because--instead of having people that 
once they get hurt or they've ended their term of service, that 
you throw them away like expended war materiel. These are 
United States citizens who voluntarily took that step forward, 
pledging life and limb in defense of the Constitution, and we 
can and must do better by these individuals.
    Mr. Cleaver. Yes, sir, Mr. Chamrin.
    Mr. Chamrin. If I may, thank you, sir. We have testified 
numerous times before the House Committee on Veterans Affairs, 
Subcommittee on Economic Opportunity. And our studies have 
shown that education leads to better employment, which can lead 
to financial stability. Now I can give you the demographic 
report, but off the top of my head, only 20 percent of enlisted 
members have a bachelor's degree or higher.
    I have numbers here that the average median income for 
someone who gets a degree, of all Americans, is $55,000 a year. 
There are currently 400,000 veterans who have served honorably 
in Iraq and Afghanistan who are losing earned education 
benefits just because they're leaving the National Guard and 
Reserve. Now these are 400,000 honorably served veterans who 
are potentially being severely rent burdened because they are 
no longer going to have the means to go into college. They 
could end up similar to myself, $50,000 in debt for just 
college alone. And I have no credit card debt. The military 
definitely creates highly disciplined, educated, committed 
soldiers with integrity. They're quality citizens. So by not 
supporting them in just plain old education is a travesty upon 
our Nation. And with numbers I think we said before, 60 percent 
of the workforce is going to be turned over by 2020. We need 
competent, educated people to replace these Federal employees 
and private employees, and veterans are those people. At least 
get them an education to be competitive in the workforce.
    Mr. Cleaver. Thank you.
    Chairwoman Waters. You're certainly welcome. And I'd like 
to thank this panel. Listening to your testimony today while we 
are focused on housing, because this is the Subcommittee on 
Housing and Community Opportunity, I wish we could take this 
veterans issue and include employment and education so that we 
could bring it all together. But we are committed to working 
with the appropriate committees to do that.
    One last thing before we adjourn: There used to be a time 
when members of the African American community would advise 
their sons to go to the service, because they said, you know, 
you can get trained. You can get some discipline. You aren't 
doing anything now, so go in there and you'll be a better 
person coming out, and you'll learn something and you'll be 
able to get a job when you come out. What happened to those 
jobs and that training? Has Halliburton taken all of the 
training away from our soldiers and jobs that they could be 
doing? Is there any training going on at all when they go into 
the service?
    Mr. Chamrin. If I may, ma'am, there's a huge problem with 
licensing and certification of military occupational 
specialties and the transfer of those skills to the civilian 
sector. And Rick and I have testified numerous, numerous times 
about this, is that less than 10 percent of all jobs in the 
military are actually transferrable to the civilian sector 
using the military licensing. So that's something that could 
really assist the veterans, and it's not going to cost a lot, 
at least have the DoD provide transferrable licensing and 
certification to the civilian sector.
    Mr. Radcliff. Another piece of that, and, you know, of the 
17,000 veterans we've served, all of them were poor and 
homeless. A key piece in that is that the job--there is no 
translator in the civilian world. And most employers are 
looking for employees. They don't want to go through the whole 
translation period, even the work opportunity tax credits. A 
lot of these employers don't want to take the time to have the 
burden of filling out that paperwork and getting the benefit of 
the work opportunity tax credit. So in the real world, it is, 
what it looks like is that we need to get services that are 
onsite, that are unique, that are not necessarily a part of 
just mainstream, because a lot of the WIA one-stop work source 
centers don't see homeless veterans, don't see necessarily low-
income veterans.
    Chairwoman Waters. Well, this has been so informative and 
so good for us. I thank you all for being here, and I'd like to 
note that some members may have additional questions for this 
panel which they wish to submit in writing. Without objection, 
the hearing record will remain open for 30 days for members to 
submit written questions to these witnesses, and to place their 
responses in the record.
    And before we adjourn, without objection, the written 
statement of the National Association of Realtors will be made 
a part of the record. Thank you. This committee is now 
adjourned and the panel is dismissed. This will be the first 
time in all of my hearings that I will ask you to remain down 
there for a few minutes so that we can take some pictures with 
you. Thank you very much.
    [Whereupon, at 1:42 p.m., the hearing was adjourned.]


                            A P P E N D I X



                            December 5, 2007
[GRAPHIC] [TIFF OMITTED] 40434.001

[GRAPHIC] [TIFF OMITTED] 40434.002

[GRAPHIC] [TIFF OMITTED] 40434.003

[GRAPHIC] [TIFF OMITTED] 40434.004

[GRAPHIC] [TIFF OMITTED] 40434.005

[GRAPHIC] [TIFF OMITTED] 40434.006

[GRAPHIC] [TIFF OMITTED] 40434.007

[GRAPHIC] [TIFF OMITTED] 40434.008

[GRAPHIC] [TIFF OMITTED] 40434.009

[GRAPHIC] [TIFF OMITTED] 40434.010

[GRAPHIC] [TIFF OMITTED] 40434.011

[GRAPHIC] [TIFF OMITTED] 40434.012

[GRAPHIC] [TIFF OMITTED] 40434.013

[GRAPHIC] [TIFF OMITTED] 40434.014

[GRAPHIC] [TIFF OMITTED] 40434.015

[GRAPHIC] [TIFF OMITTED] 40434.016

[GRAPHIC] [TIFF OMITTED] 40434.017

[GRAPHIC] [TIFF OMITTED] 40434.018

[GRAPHIC] [TIFF OMITTED] 40434.019

[GRAPHIC] [TIFF OMITTED] 40434.020

[GRAPHIC] [TIFF OMITTED] 40434.021

[GRAPHIC] [TIFF OMITTED] 40434.022

[GRAPHIC] [TIFF OMITTED] 40434.023

[GRAPHIC] [TIFF OMITTED] 40434.024

[GRAPHIC] [TIFF OMITTED] 40434.025

[GRAPHIC] [TIFF OMITTED] 40434.026

[GRAPHIC] [TIFF OMITTED] 40434.027

[GRAPHIC] [TIFF OMITTED] 40434.028

[GRAPHIC] [TIFF OMITTED] 40434.029

[GRAPHIC] [TIFF OMITTED] 40434.030

[GRAPHIC] [TIFF OMITTED] 40434.031

[GRAPHIC] [TIFF OMITTED] 40434.032

[GRAPHIC] [TIFF OMITTED] 40434.033

[GRAPHIC] [TIFF OMITTED] 40434.034

[GRAPHIC] [TIFF OMITTED] 40434.035

[GRAPHIC] [TIFF OMITTED] 40434.036

[GRAPHIC] [TIFF OMITTED] 40434.037

[GRAPHIC] [TIFF OMITTED] 40434.038

[GRAPHIC] [TIFF OMITTED] 40434.039

[GRAPHIC] [TIFF OMITTED] 40434.040

[GRAPHIC] [TIFF OMITTED] 40434.041

[GRAPHIC] [TIFF OMITTED] 40434.042

[GRAPHIC] [TIFF OMITTED] 40434.043

[GRAPHIC] [TIFF OMITTED] 40434.044

[GRAPHIC] [TIFF OMITTED] 40434.045

[GRAPHIC] [TIFF OMITTED] 40434.046

[GRAPHIC] [TIFF OMITTED] 40434.047

[GRAPHIC] [TIFF OMITTED] 40434.048

[GRAPHIC] [TIFF OMITTED] 40434.049

[GRAPHIC] [TIFF OMITTED] 40434.050

[GRAPHIC] [TIFF OMITTED] 40434.051

[GRAPHIC] [TIFF OMITTED] 40434.052

[GRAPHIC] [TIFF OMITTED] 40434.053

[GRAPHIC] [TIFF OMITTED] 40434.054

[GRAPHIC] [TIFF OMITTED] 40434.055

[GRAPHIC] [TIFF OMITTED] 40434.056

[GRAPHIC] [TIFF OMITTED] 40434.057

[GRAPHIC] [TIFF OMITTED] 40434.058

[GRAPHIC] [TIFF OMITTED] 40434.059

[GRAPHIC] [TIFF OMITTED] 40434.060

[GRAPHIC] [TIFF OMITTED] 40434.061

[GRAPHIC] [TIFF OMITTED] 40434.062

[GRAPHIC] [TIFF OMITTED] 40434.063

[GRAPHIC] [TIFF OMITTED] 40434.064

[GRAPHIC] [TIFF OMITTED] 40434.065

[GRAPHIC] [TIFF OMITTED] 40434.066

[GRAPHIC] [TIFF OMITTED] 40434.067

[GRAPHIC] [TIFF OMITTED] 40434.068

[GRAPHIC] [TIFF OMITTED] 40434.069

[GRAPHIC] [TIFF OMITTED] 40434.070

[GRAPHIC] [TIFF OMITTED] 40434.071

[GRAPHIC] [TIFF OMITTED] 40434.072

[GRAPHIC] [TIFF OMITTED] 40434.073


</pre></body></html>
